BUREAU OF ALCOHOL, TOBACCO, 

  FIREARMS AND EXPLOSIVES

ANNUAL FINANCIAL STATEMENTS

     FISCAL YEAR 2011

        U.S. Department of Justice

      Office of the Inspector General

               Audit Division


           Audit Report 12-14

             February 2012

             BUREAU OF ALCOHOL, TOBACCO,

               FIREARMS AND EXPLOSIVES

             ANNUAL FINANCIAL STATEMENTS

                   FISCAL YEAR 2011


              OFFICE OF THE INSPECTOR GENERAL

                 COMMENTARY AND SUMMARY


       This audit report contains the Annual Financial Statements of the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) for the fiscal
years (FY) ended September 30, 2011, and September 30, 2010. Under the
direction of the Office of the Inspector General (OIG), Cotton &
Company LLP performed the ATF’s audit in accordance with U.S. generally
accepted government auditing standards. The audit resulted in an
unqualified opinion on the FY 2011 financial statements. An unqualified
opinion means that the financial statements present fairly, in all material
respects, the financial position and the results of the entity’s operations in
conformity with U.S. generally accepted accounting principles. For FY 2010,
ATF also received an unqualified opinion on its financial statements (OIG
Report No. 11-13).

       Cotton & Company LLP also issued reports on internal control over
financial reporting and on compliance and other matters. The auditors
identified one significant deficiency in internal control in the FY 2011
Independent Auditors’ Report on Internal Control over Financial Reporting.
The significant deficiency related to weaknesses in review and oversight of
financial reporting. Specifically, ATF needs to improve its oversight of
reconciliations of general ledger accounts, reviewing transactions, and
analyzing account balances to ensure the accuracy of its financial
statements. Additionally, no instances of non-compliance with applicable
laws and regulations, and the Federal Financial Management Improvement
Act of 1996 were identified during the audit in the FY 2011 Independent
Auditors’ Report on Compliance and Other Matters.

      The OIG reviewed Cotton & Company LLP’s reports and related
documentation and made necessary inquiries of its representatives. Our
review, as differentiated from an audit in accordance with U.S. generally
accepted government auditing standards, was not intended to enable us to
express, and we do not express, an opinion on ATF’s financial statements,
conclusions about the effectiveness of internal control, conclusions on
whether ATF’s financial management systems substantially complied with
the Federal Financial Management Improvement Act of 1996, or conclusions



                                       i
on compliance with laws and regulations. Cotton & Company LLP is
responsible for the attached auditors’ reports dated November 4, 2011, and
the conclusions expressed in the reports. However, our review disclosed no
instances where Cotton & Company LLP did not comply, in all material
respects, with U.S. generally accepted government auditing standards.




                                     ii
                 BUREAU OF ALCOHOL, TOBACCO,

                   FIREARMS AND EXPLOSIVES

                 ANNUAL FINANCIAL STATEMENTS

                       FISCAL YEAR 2011


                          TABLE OF CONTENTS


                                                                              PAGE


MANAGEMENT'S DISCUSSION AND ANALYSIS..........................................3


INDEPENDENT AUDITORS’ REPORTS


  REPORT ON FINANCIAL STATEMENTS ................................................ 27


  REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING............ 29


  REPORT ON COMPLIANCE AND OTHER MATTERS ................................ 37


PRINCIPAL FINANCIAL STATEMENTS AND RELATED NOTES


  CONSOLIDATED BALANCE SHEETS.................................................... 41


  CONSOLIDATED STATEMENTS OF NET COST ...................................... 42


  CONSOLIDATED STATEMENTS OF CHANGES IN NET POSITION............. 43


  COMBINED STATEMENTS OF BUDGETARY RESOURCES ........................ 44


  COMBINED STATEMENTS OF CUSTODIAL ACTIVITY............................. 46


  NOTES TO THE PRINCIPAL FINANCIAL STATEMENTS ........................... 47


REQUIRED SUPPLEMENTARY INFORMATION


COMBINING STATEMENTS OF BUDGETARY RESOURCES.......................... 86


APPENDIX


  OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND SUMMARY

    OF ACTIONS NECESSARY TO CLOSE THE REPORT .......................... 91

This page intentionally left blank.
Management’s Discussion and Analysis


              Unaudited





               -1-
This page intentionally left blank.




                 -2-
                            U. S. Department of Justice

                Bureau of Alcohol, Tobacco, Firearms and Explosives

                      Management’s Discussion and Analysis

                                    (unaudited)


MISSION

We are ATF.

ATF is a unique law enforcement agency in the United States Department of Justice that protects our
communities from violent criminals, criminal organizations, the illegal use and trafficking of firearms,
the illegal use and storage of explosives, acts of arson and bombings, acts of terrorism, and the illegal
diversion of alcohol and tobacco products.

We partner with communities, industries, law enforcement, and public safety agencies to safeguard the
public we serve through information sharing, training, research, and use of technology.

VISION

We Are ATF - A dedicated team securing America’s future by accomplishing a critical mission today.
We Protect America.
We Protect Your Community.

VALUES

We value our people and those we serve.

We value professionalism, integrity, diversity, commitment, innovation, and excellence.

We value partnerships that promote the safety of our communities.


ORGANIZATIONAL STRUCTURE
ATF’s national headquarters, located in Washington, DC, includes offices that develop major policies
and programs in accordance with the applicable laws and regulations that ATF enforces. ATF’s
executive structure consists of the Deputy Director, Chief Counsel, Chief of Staff, and the Assistant
Directors for Field Operations; Enforcement Programs and Services; Strategic Intelligence and
Information; Professional Responsibility and Security Operations; Public and Governmental Affairs;
Management/Chief Financial Officer; Science and Technology/Chief Information Officer; and Human
Resources and Professional Development (formerly Training and Professional Development). These
executives form the Bureau’s Strategic Leadership Team, which oversees and approves large
investments such as buildings, relocations, IT investments, and equipment. The Offices of the Chief
of Staff, Ombudsman, the Executive Assistant for Equal Opportunity, Disclosure Office, and the
Office of Strategic Management are key components of the Office of the Director.




                                                 -3-
ATF has offices throughout the United States, including Puerto Rico, the Virgin Islands and Guam.
ATF also has a presence at U.S. embassies in El Salvador, Colombia, Mexico, and Canada; U.S.
Consular offices in Tijuana, Ciudad Juarez, Hermosillo, Guadalajara and Monterrey, Mexico; Interpol
Headquarters in Lyon, France; and at Europol in The Hague, Netherlands, to address the trafficking of
firearms, explosives, alcohol, and tobacco. ATF has several employees in Iraq providing explosives
technical support for the US Embassy, Baghdad, and the Department of Defense. The field structure
is comprised of 25 field divisions strategically located throughout the United States, with a single
executive heading each office and having responsibility for all law enforcement and industry
regulation within the geographical area.



                                 ATF ORGANIZATION CHART




                                               -4-
FINANCIAL STRUCTURE

ATF’s primary funding source is an annual appropriation, which funds salaries, operating expenses,
property and equipment, as authorized by law. ATF may also receive appropriations to cover specific
needs, such as expenses incurred as the result of the relocation of law enforcement frequencies in the
radio spectrum, and construction of the National Center for Explosives Training and Research;
however, these appropriations are situational in nature and occur as the need arises. In addition, ATF
has agreements with other Federal entities, including the Department of Justice Assets Forfeiture
Fund, to reimburse authorized ATF expenses.

ATF’s central budget office allocates funding among the directorates which are responsible, along
with a central budget office, for expending against this funding.

ANALYSIS OF FINANCIAL STATEMENTS

ATF prepares the principal financial statements required by OMB Circular A-136, Financial
Reporting Requirements.

The Consolidated Balance Sheet is a presentation of ATF’s assets, liabilities, and net position as of the
end of the fiscal year. Assets represent the amounts of future economic benefits that are owned or
managed by the Bureau. Liabilities are the amounts that are owed by the Bureau and net position
comprises the unexpended appropriations and the cumulative results of operation.

Total assets as of September 30, 2011 and 2010, were $556.7 and $561.7 million, respectively with a
decrease of approximately 1.0 percent. The Fund Balance with the Treasury represents approximately
43.4 percent of assets in FY 2011 and 46.5 percent in FY 2010.

Total liabilities as of September 30, 2011 and 2010, were $352.3 million and $330.3 million,
respectively. The increase of $22.0 million or 6.7 percent is primarily due to increase in liabilities
from undercover operations of $18.5 million and an increase in the FECA Actuarial liability of $3.7
million.

The Consolidated Statement of Net Cost presents the gross operating costs and any related exchange
revenue for the reporting period. The bottom line is the net cost to operate and run the Bureau
programs for the fiscal year. ATF records the full cost of all transactions, including imputed costs
absorbed by other entities. The net costs of operations as of September 30, 2011 and 2010 were
$1,182.4 million and $1,181.9 million, respectively, an increase of approximately $.5 million.

The Consolidated Statement of Changes in Net Position presents both the net cost of operations and
how those costs were financed, whether from appropriations, transfers, or imputed financing.
Unexpended appropriations as of September 30, 2011 and 2010 were $174.2 million and $202.2
million, respectively, the decrease is approximately 13.8 percent. The Net Position as of September
30, 2011 and 2010 was $204.4 million and $231.4 million, respectively, with a decrease of
approximately 11.7 percent. The FY 2011 appropriations decreased by $43.5 million or 3.8 percent.




                                                 -5-
The Combined Statement of Budgetary Resources presents how resources are received by ATF,
whether through appropriations, other authorities, or reimbursements and recoveries. The Combined
Statement of Budgetary Resources also provides the status of those resources, the amount that is
obligated, and whether the source of those obligations is direct or reimbursable funds. Obligations
incurred as of September 30, 2011 and 2010 were $1,260.4 million and $1,258.1 million, respectively
or an increase of approximately .2 percent.

The Combined Statement of Custodial Activity presents non-exchange revenue consisting of fees and
licenses that ATF collects and distributes. Non-exchange revenues are unavailable for use by ATF
and are transferred to the General Fund of the Treasury. The primary sources of these collections are
firearms and explosive licenses and import fees. The total custodial revenue as of September 30, 2011
and 2010 was $21.4 million and $14.7 million, respectively. The increase of approximately 45.6
percent is primarily due to an increase in the application volume, and related payments, for National
Firearms Act (NFA) transfers and/or registration of NFA class weapons as well as funds from
undercover operations.




                                               -6-
                                   Table 1. Source of ATF Resources
                                         (Dollars in Thousands)


                          Source                                  FY 2011         FY 2010       Change%
Earned Revenue                                                $       91,300 $       91,159       0%
Budgetary Financing Sources
  Appropriations Received                                          1,114,772       1,158,272      -4%
  Appropriations Transferred-In/Out                                   (7,892)        (3,318)     138%
  Other Adjustments and Other Budgetary Financing Sources             (2,231)               -    -100%
Other Financing Sources
  Transfers-In/Out Without Reimbursement                               3,153          2,407       31%
  Imputed Financing from Costs Absorbed by Others                     47,544         39,264       21%
Total                                                         $ 1,246,646       $ 1,287,784       -3%


                               Table 2. How ATF Resources are Spent
                                        (Dollars in Thousands)


                   Strategic Goal (SG)                            FY 2011        FY 2010        Change%
SG 1: Prevent Terrorism and Promote the Nation’s Security

                                                  Net Cost $           5,649 $        7,185      -21%
SG 2: Prevent Crime, Enforce Federal Laws, and Represent
the Rights and Interests of the American People
                                                Gross Cost         1,268,049       1,265,934
                                       Less: Earned Revenue           91,300          91,159

                                                   Net Cost        1,176,749       1,174,775      0%


                                           Total Gross Cost        1,273,698       1,273,119
                                Less: Total Earned Revenue            91,300          91,159
                              Total Net Costs of Operations $ 1,182,398         $ 1,181,960       0%




                                               -7-
2011 Financial Highlights
ATF activities primarily support the Department’s goal to Prevent Crime, Enforce Federal Laws, and
Represent the Rights and Interests of the American People. However, many of our core activities,
including ATF participation on task forces to prevent terrorism, also support the Department’s goal to
Prevent Terrorism and Promote the Nation’s Security.

STRATEGIC GOAL 1: Prevent Terrorism and Promote the Nation’s Security, .5 percent of
ATF’s Net Costs support this Goal, which includes ATF activity in the Joint Terrorism Task Force and
the Terrorist Device Analysis Center. The Goal 1 net cost for FY 2011 and FY 2010 were $5.6 million
and $7.2 million, respectively, a decrease of approximately 21.4 percent, which comprises only .5
percent of total net cost and therefore is not material in nature.


STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and
Interests of the American People, 99.5 percent of ATF’s Net Costs support this Goal, which includes
all ATF activities except those reported in Strategic Goal 1. The Goal 2 net costs for FY 2011 and FY
2010 were $1,176.7 million and $1,174.8 million, respectively, an increase of approximately .2
percent. This increase is not material in nature.


PERFORMANCE INFORMATION

Data Reliability And Validity

The ATF views data reliability and validity as critically important in the planning and assessment of
performance. As such, this document includes a discussion of data validation, verification, and any
identified data limitations for each performance measure presented. ATF ensures that data reported
meets the following criteria:

      At a minimum, performance data are considered reliable if transactions and other data that support
      reported performance measures are properly recorded, processed, and summarized to permit the
      preparation of performance information in accordance with criteria stated by management.
      Performance data need not be perfect to be reliable, particularly if the cost and effort to secure the best
      performance data possible will exceed the value of any data so obtained.




                                                     -8-
FY 2011 REPORT ON SELECTED RESULTS
STRATEGIC GOAL 2: Prevent Crime, Enforce Federal Laws and Represent the Rights and
Interests of the American People 99.5% of ATF’s Net Costs support this goal.

PROGRAMS: Illegal Firearms Trafficking; Firearms Criminal Possession and Use; Criminal
Groups and Gangs; Firearms Industry Operations

Background/Program Objectives: Violent firearms crime remains a significant and complex
domestic problem, fueled by a variety of causes that vary from region to region. The common
element, however, is the relationship between firearms violence and the unlawful diversion of firearms
out of commerce into the hands of prohibited persons. ATF’s unique statutory responsibilities and
assets, including technology and information, are focused under the agency’s Integrated Violence
Reduction Strategy (IVRS) to remove violent offenders, including gang members, from our
communities; keep firearms from those who are prohibited by law from possessing them; discourage,
prohibit, and interrupt illegal weapons transfers in accordance with the law; and prevent firearms
violence through community outreach.

The violence fueled by firearms trafficking is demonstrated in the crisis on our Southwest Border.
Our firearms trafficking interdiction strategy complements our continued focus on the deployment of
resources to specific localities where there is a high incidence of gang and gun violence. Through
firearms trafficking interdiction efforts, ATF decreases the availability of illicit firearms and
recommends for prosecution of those who illegally supply firearms to prohibited possessors. Violent
gang members are often involved in firearms trafficking, both for potential profit and in furtherance of
drug trafficking and other crimes. Recent trends have shown an increase in the number of firearms
recovered in Mexico, and these firearms fuel the growing violence along the border, including the
brutal murders of hundreds of law enforcement officers and government officials. ATF’s efforts to
reduce violent firearms crime include:

   •	 ATF’s Southwest Border initiative, Project Gunrunner, is a focused subset of ATF’s broader
      firearms trafficking initiative, addressing U.S.-based firearms trafficking that is fueling the
      violence along the Southwest Border and nationwide. Project Gunrunner attacks the prevalence
      of illegal firearms available in the Southwest Border region and stems the flow of firearms to
      criminal organizations in Mexico. Additionally, ATF enhances its efforts along the Southwest
      Border with an integrated violent crime and gang reduction program with initiatives like the
      Violent Crime Impact Teams and Regional Area Gang Enforcement Teams.

   •	 Partnering with law enforcement agencies and prosecutors at all levels to develop focused
      strategies to investigate, arrest, and prosecute violent offenders, persons prohibited from
      possessing firearms, domestic and international firearms traffickers, violent gangs, and others
      who attempt to illegally acquire or misuse firearms.




                                                 -9-
   •	 Assisting the law enforcement community in identifying firearms trafficking trends and
      resolving violent crimes by providing automated firearms ballistics technology, tracing guns
      used in crimes, and developing advanced firearms investigative techniques.

   •	 Ensuring that only qualified applicants who meet the eligibility requirements of the law enter
      the regulated firearms industry by employing appropriate screening procedures prior to
      licensing.

   •	 Inspecting firearms dealers to identify any illegal purchases or diversion of firearms to
      criminals and to ensure the accuracy of records used in tracing firearms. ATF ensures that
      firearms industry members comply with the Gun Control Act, the National Firearms Act, and
      the Arms Export Control Act.

   •	 Keeping restricted firearms such as machine guns out of the hands of prohibited persons by
      performing criminal records checks on applicants. ATF maintains the accuracy and integrity
      of the National Firearms Registration and Transfer Record so that the location and ownership
      of restricted firearms are kept current.

   •	 Ensuring that only firearms that are legally importable under ATF and State Department rules
      are imported into the United States and are properly marked and recorded by the importer for
      sale domestically.

   •	 Collaborating with schools, law enforcement agencies, community organizations, and the
      firearms industry to implement educational programs which help to reduce firearms violence.

   •	 Informing the public and firearms industry about ATF policies, regulations, and product safety
      and security, so that they can better comply with the law. To do so, ATF uses a variety of
      communication methods such as the Internet, trade and community publications, seminars, and
      industry meetings.

The following represent examples of ATF’s success in support of Strategic Goal 2:

   •	 In FY 2011, ATF collected approximately $17.4 million dollars in license fees, registration
      fees, Special Occupational Tax Stamps, and National Firearms Act taxes. This amount does
      not include fines, penalties and restitutions and is net of refunds.

   •	 In FY 2011, ATF recommended 11,257 criminal cases against 18,790 defendants for
      prosecution – 1,590 of those cases involve 5,206 defendants engaged in gang related criminal
      conduct. Of the defendants recommended for prosecution, nearly 60% are previously
      convicted felons and 82% have prior arrest records.

   •	 In addition, in FY 2011, ATF arrested 9,368 defendants, which led to 10,772 indictments and
      7,337 convictions. As a result, 6,201 defendants were sentenced to prison in FY 2011 and
      received an average sentence of 191 months, excluding the 60 defendants who received life
      sentences and seven who received death sentences.




                                               -10-
   •	 In FY 2011 we initiated the following criminal investigations:

        o	 27,515 firearms cases, including illegal possession and firearms trafficking;
        o	 3,244 arson and explosives cases, including bombing and attempted bombing cases; and,
        o	 125 alcohol and tobacco diversion cases.

   •	 Since the inception of Project Gunrunner in FY 2006, ATF has seized 10,902 firearms and
      over 1.4 million rounds of ammunition destined for the Southwest Border. ATF has arrested
      3,515 defendants and obtained evidence that indicates 26,727 firearms were trafficked to
      Mexico by organizations investigated by ATF.

   •	 In FY 2011, ATF seized 1,171 firearms and 110,219 rounds of ammunition destined for the
      Southwest Border. ATF has arrested 430 defendants and obtained evidence that 4,330 firearms
      were trafficked to Mexico by organizations investigated by ATF.

   •	 In FY 2011, ATF referred 311 cases for prosecution related to the Southwest Border, under
      Project Gunrunner.

   •	   In FY 2011, there were 7,424 retail dealers and pawnbrokers who held Federal Firearms
        Licenses (FFLs) in Texas, Arizona, New Mexico, and Southern California. In 2011, ATF
        inspected 50 percent of the FFLs in those four states.
ATF’s Internet site contains supporting documentation and reference materials on ATF programs. It
can be accessed at http://www.atf.gov.

Performance Measure: Percentage of firearms investigations resulting in a referral for criminal
prosecution. (DISCONTINUED)

FY 2002 Actual Performance – N/A
FY 2003 Actual Performance – N/A
FY 2004 Actual Performance – N/A
FY 2005 Actual Performance – 55%
FY 2006 Actual Performance – 57%
FY 2007 Actual Performance – 57%
FY 2008 Actual Performance – 60%
FY 2009 Actual Performance – 59%
FY 2010 Actual Performance – 56%
FY2011 Target - N/A




                                                -11-
                              Percentage of Firearms Investigations Resulting in a Referral for

                                                   Criminal Prosecution
                     56%
                                                         55%       57%      57%      60%       59%




                              0%        0%      0%


                         FY 02     FY 03     FY 04    FY 05    FY 06     FY 07    FY 08     FY 09    FY 10
                                                                   Actual


Discussion of FY 2011 Results: This measure was discontinued at the end of FY 2010 and ATF is no
longer measuring or reporting results. As part of the development of the FY 2010 – FY 2016 Strategic
Plan, ATF developed a Performance Index to measure ATF’s 10 core functions as well as the strategic
goals and strategic objectives. The Index included a performance goal statement for each core
function to provide comprehensive tracking and measurement of ATF’s performance across the
enterprise. In the Index, each performance goal statement aligns with specified strategic objectives
and their corresponding performance indicators. This structure allows ATF to evaluate performance at
each level: enterprise, budget decision unit, core function/performance goal statement, and strategic
objective, and to use performance indicators to track progress against targets. ATF will incorporate
the newly developed indicators into future submissions and align them to the Department’s strategic
plan.

Data Definitions: This measure reflects the percentage of ATF’s firearms investigations in which a
defendant was referred for criminal prosecution. This measure is based on the premise that ATF is the
Federal law enforcement agency with unique expertise and statutory authority to enforce Federal
firearms laws, and that ATF reduces firearms violence through investigations and their resulting law
enforcement consequences (specifically the referral for criminal prosecution and the ensuing
incapacitation of criminals under these statutes). 1 More effective enforcement of Federal firearms
laws contributes to disrupting criminal activity, deterring violent crime, and safeguarding the
legitimate firearms industry from exploitation by criminals. This measure allows ATF to gauge the
impact of applying its Federal statutory authority and resources to a national strategy to fight violent
crime in our communities – targeting those who commit the violence and those who facilitate their
commission by supplying firearms through straw purchases, unlicensed dealing, theft from Federal
firearms licensees and interstate carriers, and other illegal means.

Data Collection and Storage: The data source is ATF’s National Field Office Case Information
System (NFOCIS), which is ATF’s integrated and centralized data management solution allowing real
time monitoring and oversight of all criminal enforcement activities in the field.

1
  “Although studies that focus exclusively on violent offenders are rare, empirical evidence about violent offending can be found in
cross-sectional and longitudinal studies of general offending careers. The results from this research generally support the conclusion that
incapacitation has nontrivial consequences for the control of violent crime.” Commission on Behavioral and Social Sciences and
Education: Understanding and Preventing Violence, Volume 4: Consequences and Control (1994).




                                                                -12-
Data Validation, and Verification: There is an ongoing quality assurance and case management
program in place within ATF which includes the required review and approval of case information by
ATF field managers. The data is subsequently verified through ATF’s inspection process, performed
internally by the Office of Professional Responsibility and Security Operations. The internal
inspections occur on a four year cycle and are performed at each ATF field office and division.

Data Limitations: ATF investigations are often complex and time consuming in nature, and often
span multiple years from initiation through closure. The data used to calculate this percentage is based
on the date investigations are closed, and are therefore likely to include investigations that have
spanned previous time periods.


PROGRAMS: Explosives, Bombs, and Bombings; Explosives Industry Operations; Fire and
Arson

Background/Program Objectives: ATF is the Federal agency primarily responsible for administering
and enforcing the criminal and regulatory provisions of the Federal laws pertaining to destructive
devices (bombs), explosives, and arson. Over nearly 40 years, ATF has developed investigative
capabilities, expertise, and resources that have positioned ATF as this Nation’s definitive source for
explosives and fire investigative knowledge and assistance.

Approximately ninety-nine percent of all bombings in the United States fall under the jurisdiction of
ATF, but ATF also responds to and plays a key role in investigating the few incidents that are
classified as “terrorist bombings.” These include incidents that are classified as domestic terrorism,
such as those perpetrated by animal rights activists. An array of specialized programs and technical
services managed and executed by a diverse and knowledgeable workforce, is the foundation of ATF’s
success. These include, but are not limited to, the following:

   •	 Certified Explosives Specialist (CES) Program: The primary mission of this program is to
      protect the public through the vigorous enforcement of the Federal explosives laws; to provide
      credible explosives crime scene examinations; to lend expertise in support of security measures
      implemented at special events; and to assist ATF’s law enforcement counterparts at the
      Federal, State, local, and international levels in their efforts to investigate complex explosives-
      related incidents.

   •	 Explosives Enforcement Officers: ATF’s explosives enforcement officers (EEOs) provide
      technical assistance and support in explosives matters. EEOs have extensive experience in
      explosives and bomb disposal. Most EEOs are former military explosive ordinance disposal
      (EOD) trained, with extensive training in nuclear, biological, chemical, and conventional high
      explosive and incendiary weapons systems. EEOs render explosive devices safe and/or
      disassemble explosive and incendiary devices, prepare destructive device determinations, and
      render expert testimony in support of such determinations in State and Federal criminal court
      proceedings. Additionally, EEOs provide expert analysis and onsite investigative technical
      assistance at bombing and arson scenes and scenes where explosions of an undetermined
      nature have occurred. They play a critical role in large-scale explosives destructions.



                                                -13-
      Determining what constitutes an explosive, incendiary, or destructive device under the Federal
      explosives laws and the National Firearms Act involves highly technical examinations and
      analyses, and is a function that is uniquely performed by ATF’s EEOs.

   •	 Certified Fire Investigator (CFI) Program: The CFI Program consists of special agents who
      have undergone an extensive 2-year training program designed to educate them in the field of
      advanced fire scene examination, with emphasis on modern principles of fire dynamics. These
      agents comprise the only group of fire origin and cause specialists within the Federal sector.

      The special agent CFI’s serve as ATF’s primary resource in fire-related matters. They conduct
      fire scene examinations and render origin and cause determinations on behalf of ATF; provide
      expert courtroom testimony; provide technical support and analysis to assist other special
      agents and prosecutors with court preparation, presentation of evidence, and technical
      interpretation of fire-related information; lend technical guidance in support of field arson
      investigative activities; conduct arson-related training for ATF special agents and other
      Federal, State, and local fire investigators; and conduct research and identify trends and
      patterns in fire incidents.

      National Response Team (NRT): ATF’s National Response Team was formed in 1978 to
      help meet the needs of those who respond to and investigate complex incidents. The NRT
      consists of four regional response units. Each unit can respond to an incident within 24 hours
      and is comprised of technical experts and veteran special agents having post-blast and fire
      origin and cause expertise, including CESs, CFIs, EEOs, forensic chemists, fire protection
      engineers, electrical engineers, forensic mapping capabilities, and accelerant and explosives
      detection canines. Further complementing the team’s efforts are intelligence and audit support,
      and technical and legal advisors.

Performance Measure: Percentage of arson/explosives cases with defendants referred for
prosecution. (DISCONTINUED)

FY 2002 Actual Performance – N/A
FY 2003 Actual Performance – N/A
FY 2004 Actual Performance – N/A
FY 2005 Actual Performance – N/A
FY 2006 Actual Performance – N/A
FY 2007 Actual Performance – N/A
FY 2008 Actual Performance – N/A
FY 2009 Actual Performance – 19%
FY 2010 Actual Performance – 21%
FY 2011 Target – N/A




                                              -14-
                     Percentage of Arson/explosives Cases with Defendants Referred for
                                               Prosecution            19% 21%

                          0%     0%    0%    0%     0%       0%   0%

                        FY 02 FY 03 FY 04 FY 05 FY 06 FY 07 FY 08 FY 09 FY 10

                                                    Actual




Discussion of FY 2011 Results: This measure was discontinued at the end of FY 2010 and ATF is no
longer measuring or reporting results. As part of the development of the FY 2010 – FY 2016 Strategic
Plan, ATF developed a Performance Index to measure ATF’s 10 core functions as well as the strategic
goals and strategic objectives. The Index included a performance goal statement for each core
function to provide comprehensive tracking and measurement of ATF’s performance across the
enterprise. In the Index, each performance goal statement aligns with specified strategic objectives
and their corresponding performance indicators. This structure allows ATF to evaluate performance at
each level: enterprise, budget decision unit, core function/performance goal statement, and strategic
objective, and to use performance indicators to track progress against targets. ATF will incorporate
the newly developed indicators into future submissions and align them to the Department’s strategic
plan.

Data Definitions: The majority of ATF's resources in arson and explosives are expended to prevent
explosives from getting into the hands of those who would use them for criminal purposes, and to
investigate and refer for prosecution those who have used explosives for such purposes. This measure
reflects the outcome of ATF's investigative efforts in arson and explosives criminal cases, from the
initial on-scene assessment and determination that a crime has been committed, the application of
technical and forensic resources in the course of the investigation, the identification of suspects, the
development/gathering of evidence sufficient to support criminal charges, and finally, to the
presentation of a criminal case suitable for prosecution to the prosecuting attorney.

Data Collection and Storage: Data to support the measure for the percentage of cases with arson and
explosives defendants referred for prosecution is collected through the NFOCIS. NFOCIS provides
ATF with an integrated and centralized data management solution that allows for real time monitoring
and oversight of all criminal enforcement and industry operations activities in the field. NFOCIS
provides the platform for analysis of investigative information for the purpose of producing
intelligence and statistical reports derived from the information collected by ATF.

Data Validation, and Verification: Program evaluations by internal and external entities are being
used to validate performance measures, assess program effectiveness, and determine whether
operating policies are followed. ATF has also initiated various program evaluations and customer
surveys to gauge program impact, efficiency and effectiveness of, and customer satisfaction with, ATF
support and services provided to industry and law enforcement.




                                                  -15-
ATF Performance Index Discussion:

Data Definitions: ATF has developed a Performance Index to measure ATF’s 10 core functions as
well as the strategic goals and strategic objectives. The Index includes a performance goal statement
for each core function to provide comprehensive tracking and measurement of ATF’s performance
across the enterprise. ATF’s outcome-based performance goal statements are shown below:

               Core Function                      Performance Goal Statement
              Illegal Firearms           Reduce the risk to public safety caused by illegal
                 Trafficking                           firearms trafficking

            Firearms Criminal           Reduce the risk to public safety caused by criminal
            Possession and Use                   possession and use of firearms

                                       Improve public safety by increasing compliance with
             Firearms Industry
                                         Federal laws and regulations by firearms industry
                 Operations
                                                             members
           Criminal Groups and          Reduce the risk to public safety caused by criminal
                 Gangs                               organizations and gangs

          Explosives, Bombs, and       Reduce the risk to public safety caused by bombs and
                Bombings                                    explosives

                                       Improve public safety by increasing compliance with
            Explosives Industry
                                        Federal laws and regulations by explosives industry
               Operations
                                                            members
                                      Reduce the risk to public safety caused by the criminal
              Fire and Arson
                                                            use of fire
                                      Reduce the loss of tax revenues caused by contraband
           Alcohol and Tobacco
                                                alcohol and tobacco trafficking
                                          Modernize business processes and systems for
               Modernization
                                         improved mission effectiveness and transparency
                                        Attract, develop, and retain an expert workforce to
                 Workforce
                                                     execute the ATF mission

In the Index, each performance goal statement aligns with specified strategic objectives and their
corresponding performance indicators. This structure allows ATF to evaluate performance at each
level: enterprise, budget decision unit, core function/performance goal statement, and strategic
objective, using performance indicators to track progress against targets.

Applying an index to gauge performance is a widely accepted practice for compiling multiple
performance indicators into a single number. Examples of indices used elsewhere in the Federal
government include the Environmental Protection Agency’s UV Index and the FBI’s annual
calculation of a crime rate, resulting in the FBI Uniform Crime Report. As used at ATF, the Index



                                               -16-
number moves up or down and portrays the progress made against pre-established performance goal
statements.

Data Collection and Storage: The Index measures progress against quantifiable goals or targets.
ATF has established a target for each performance indicator included in the Index based on historic
performance and ATF’s current or anticipated operating environment. Each piece of the Index
(performance indicator, strategic objective, performance goal statement, and budget decision unit) has
been assigned a weight to show its strength relative to the overall Index. The weight assigned to each
of the performance indicators is based on the indicator’s effectiveness as a measure of its respective
performance goal statement. The weight of each strategic objective is the sum of the weights of the
performance indicators that comprise it. The performance goal statements were weighted according to
two criteria: impact on its respective budget decision unit mission (e.g., the impact of Illegal Firearms
Trafficking on ATF’s Firearms mission), and ATF’s current capabilities in the area of the performance
goal statement. Weights are assigned to ATF’s budget decision units (firearms, arson and explosives,
and alcohol and tobacco) in accordance with established Congressional reprogramming thresholds
among these mission areas.

The Index is a compilation of mathematical calculations that combine ATF’s actual progress toward
targets, and the weight of the performance indicator, strategic objective, performance goal statement,
and budget decision unit. The calculations to determine the value for each level of ATF’s
Performance Index is as follows:

Per Performance Indicator:          Actual ÷ Target x Weight of Performance Indicator
Per Strategic Objective:            Sum of Performance Indicator Subtotals
Per Performance Goal                Sum of Strategic Objective Totals x Weight of Performance
Statement:                          Goal Statement
Per Budget Decision Unit:           Sum of Performance Goal Statement Subtotals x Weight of
                                    Budget Decision Unit
ATF Performance Index:              Sum of All Budget Decision Unit Subtotals

The calculations at the performance indicator and strategic objective levels are displayed in the
example below.

     Example Strategic Objective Calculation
                                                   Score                         Subtotal
     Performance                                                 Weight
                          Actual      Target       (Actual /                     (Score x
     Indicator                                                   (Percent)
                                                   Target)                       Weight)
            A                  65           100           0.65            0.15              0.0975
            B                 180           200           0.90            0.75                0.675
            C                  50           250           0.20            0.10                 0.02
     Sum of Subtotals =                                                                     0.7925
     Example Strategic Objective Value (Sum x 100) =                                          79.25




                                                  -17-
Data Validation, and Verification: The sum of the strategic objectives respective to each
performance goal statement is then multiplied by the weight assigned to the performance goal
statement. The sum of the budget decision unit subtotals establishes the score of the ATF
Performance Index.

The Performance Index helps facilitate informed decision making regarding ATF’s priorities,
activities, and resources. The Index compiles multiple Performance Indicators into a single number to
measure performance at both the Bureau and program levels. It does this by aligning ATF’s
congressionally mandated Budget Decision Units with the Bureau’s Performance Goal Statements,
Strategic Objectives, and Performance Indicators for a comprehensive tracking and measurement of
ATF’s performance.

This approach allows ATF to analyze data in several different ways (% change from year to year,
quarter to quarter, year to date, raw data trends, Field Office views, absolute change) to show all the
different dimensions of the data for ATF management consideration and evaluation. ATF’s
Performance Index allows insight into actual performance outcomes related to ATF’s mission areas.
This approach makes it possible for ATF to collect and analyze data in ways that give ATF leaders the
ability to recognize performance trends, push for organizational efficiencies and implement corrective
action plans as needed.

ATF’s Performance Index allows ATF to partner with its network (DOJ, component agencies, task
force partners, etc.) and work together to make improvements where necessary (e.g., Defendants
referred and delineation rates trend up however defendants convicted rates stagnant or going trending
downward; requires conversation with US Attorney, corrective action plan, etc.)

ATF’s performance review process uses goal-focused, data-driven reviews at least once every quarter
to assure that follow-up steps are taken to increase the likelihood of achieving better outcomes and
higher productivity. This same review process tracks ATF’s progress in achieving its GPRA long-
term and annual goals by showing long-term trends, along with contextual indicators and makes clear
the link between agency output targets and longer-term outcome goals.




                                                -18-
ANALYSIS OF SYSTEMS, CONTROLS, AND LEGAL COMPLIANCE
Federal Managers' Financial Integrity Act of 1982

The Federal Managers' Financial Integrity Act of 1982 (Integrity Act or FMFIA) provides the
statutory basis for management's responsibility for and assessment of internal accounting and
administrative controls. Such controls include program, operational, and administrative areas, as well
as accounting and financial management. The Integrity Act requires federal agencies to establish
controls that reasonably ensure obligations and costs are in compliance with applicable law; funds,
property, and other assets are safeguarded against waste, loss, unauthorized use, or misappropriation;
and revenues and expenditures are properly recorded and accounted for to maintain accountability
over the assets. The Integrity Act also requires agencies to annually assess and report on the internal
controls that protect the integrity of federal programs (FMFIA § 2) and whether financial management
systems conform to related requirements (FMFIA § 4).

Guidance for implementing the Integrity Act is provided through Office of Management and Budget
(OMB) Circular A-123, Management’s Responsibility for Internal Control. In addition to requiring
agencies to provide an assurance statement on the effectiveness of programmatic internal controls and
conformance with financial systems requirements, the Circular requires agencies to provide an
assurance statement on the effectiveness of internal control over financial reporting. The Department
requires components to provide both of the assurance statements in order to have the information
necessary to prepare the agency assurance statements.

FMFIA Assurance Statement

ATF’s Acting Director provided reasonable assurance that internal controls and financial systems met
the objectives of Section 2 and 4 of the FMFIA and complies with the requirements of the Federal
Financial Management Improvement Act (FFMIA).

Management of the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF) has established and
maintained effective internal control and financial management systems that meet the objectives of
FMFIA. ATF assessed its internal control over the effectiveness and efficiency of operations and
compliance with applicable laws and regulations in accordance with OMB Circular A-123, as required
by Section 2 of the FMFIA. Based on the results of this assessment, ATF provides reasonable
assurance, as of June 30, 2011, that its internal control over the effectiveness and efficiency of
operations and compliance with applicable laws and regulations is operating effectively.

ATF also assessed whether its financial management systems conform to government-wide
requirements. Based on the results of this assessment, ATF provides reasonable assurance that there
are no non-conformances that are required to be reported by Section 4 of the FMFIA. While the
presence of complementary or redundant controls presented a potential risk, we determined the risk
level to be minimal. In addition, ATF acknowledges several issues related to access controls.

ATF implements compensating controls to eliminate deficiencies and continues to identify system
vulnerabilities and recommend security solutions to maintain systems at a reasonable assurance level.




                                                -19-
       ATF bases this assertion on the following information sources:

       •	     Internal control assessments including tests of key financial reporting controls;
       •	     Management knowledge and experience gained from daily oversight of component
              programs, accounting systems, and administrative controls;
       •	     Program audit reports;
       •	     Financial statement audit reports;
       •	     Financial management system evaluations and reports pursuant to OMB Circular A­
              127, Financial Management Systems;
       •	     Evaluations and reports pursuant to the Federal Information Security Management Act
              (FISMA) and OMB Circular A-130, Management of Federal Information Resources;
       •	     Management reviews;
       •	     Internal reviews and investigations;
       •	     Office of the Inspector General (OIG) reports and Government Accountability Office
              (GAO) reports;
       •	     Performance plans and reports; and
       •	     Statements of Assurance from each directorate head.

ATF’s accomplishments demonstrate the Bureau’s continued commitment to supporting a complex
law enforcement mission of preventing terrorism, reducing violent crime, and protecting our Nation.

There is “reasonable assurance” that the financial system for the Bureau of Alcohol, Tobacco,
Firearms and Explosives (ATF) is in conformance with government-wide financial information
standards and financial system functional standards under Section 4 of FMFIA for FY 2011.

This statement of assurance is based on the Unified Financial Management System (UFMS) which is
the Bureau's core financial system for both revenue and administrative accounting, and assessments of
all associated financial system modules. Based on the current management, operational, and technical
controls in place, we have reasonable assurance that our financial and administrative systems have no
material issues as they relate to Section 4 of FMFIA and are “compliant” with the FFMIA. This
statement of assurance is based on the Bureau’s core financial system for both revenue and
administrative accounting, and assessments of all associated financial system modules and the
financial portions of mixed systems, supporting both financial and non-financial functions.

Some additional accomplishments related to Section 4 of FMFIA are as follows:

   •	 ATF has consistently closed its books within three work days following an accounting period.

   •	 During FY 2011, ATF successfully converted to the Unified Financial Management System
      (UFMS).

   •	 ATF also utilizes an internal management tool for preparing accounting reconciliations and
      reporting financial information. To validate that procedures and policies are being followed,
      the tool monitors and manages budgeting and accounting activity and ensures that data in
      UFMS is current and accurate. In addition, ATF incorporated an internal management control




                                               -20-
       that ensures access recertification. Monthly comparisons between E-Request and UFMS
       ensure there are no discrepancies between requesting and receiving system access.

ATF controls that fulfill the Prompt Payment Act requirements include date stamping invoices by
individuals not involved in the payment process; performing quality and validity reviews of each
invoice; encouraging program offices to be prompt in entering receipts for goods and services into the
financial system; and using management reporting tools to track outstanding invoices in the financial
system to prevent late payments and associated interest penalties.

With respect to internal accounting control, ATF management identifies designs, operates, maintains,
and monitors an appropriate system of internal controls to enable the Bureau to accurately report its
financial information to the Department of Justice (DOJ) and meet the requirements of OMB Circular
A-123, Appendix A and FFMIA.

In accordance with DOJ’s OMB Circular A-123 Implementation Plan, the Department’s Senior
Assessment Team identified the business processes significant at the Departmental level and the DOJ
components comprising a significant share of those processes. As required by the Department’s FY
2011 Guidance for Implementation of OMB Circular A-123, we have documented the following
significant business processes and tested key controls for each:

       •   Information Systems;
       •   Budget/Funds Management;
       •   Financial Reporting;
       •   Property;
       •   Procurement; and
       •   Seized and Forfeited Property.

In addition, as also required by DOJ’s FY 2011 Guidance for Implementation of OMB Circular A­
123, ATF has tested key controls over sensitive payments related to:

       •   Travel Expenditures, including Premium Class and Executive Travel;
       •   Transit Subsidies; and
       •   Conference Expenditures.

The results of testing identified no material weaknesses in ATF’s internal control over financial
reporting as of September 30, 2011. However, the testing did identify some deficiencies in the
processes related to recording obligations, financial statement quality assurance reviews and property.
Management considered the deficiencies to be reportable conditions required to be reported by Section
2 of FMFIA and OMB Circular A-123, Appendix A. Corrective Action Plans were developed to
correct the deficiencies. All milestones included in the plans will be completed before the end of FY
2012.




                                               -21-
Federal Financial Management Improvement Act of 1996
The Federal Financial Management Improvement Act of 1996 (FFMIA) was designed to improve
federal financial and program managers' accountability, provide better information for decision-
making, and improve the efficiency and effectiveness of federal programs. FFMIA requires agencies
to have financial management systems that substantially comply with federal financial management
systems requirements, applicable federal accounting standards, and the U.S. Standard General Ledger
(USSGL) at the transaction level. Furthermore, the Act requires independent auditors to report on
agency compliance with the three requirements in the financial statement audit report. The Federal
Information Security Management Act (FISMA) states that to be substantially compliant with FFMIA,
there are to be no significant deficiencies in information security policies, procedures, or practices.

FFMIA Compliance Determination
During FY 2011, ATF assessed its financial management systems for compliance with FFMIA and
determined that they substantially comply with FFMIA. This determination is based on the results of
FISMA reviews and testing performed for OMB Circular A-123, Appendix A. Consideration was also
given to any issues identified during the ATF’s financial statement audit.


POSSIBLE FUTURE EFFECTS OF EXISTING EVENTS AND CONDITIONS

ATF has aligned its priorities to the current priorities of the President and the Nation to fight terrorism
and to make our people and our communities safe from violence. Firearms and explosives are the
tools of terrorism; ATF continues to regulate their legitimate use and enforce laws against criminal
misuse. The illegal importation and trafficking of these terrorist tools continue to be disrupted through
our investigations and regulatory efforts. Because our communities continue to struggle against the
violence of criminals and gangs, ATF’s initiatives and partnerships with other law enforcement
organizations are critical components in the fight to protect the American people from violent firearms
crime. ATF’s partnership strategies with all of the U.S. Attorney’s offices, including those in
locations that currently do not have a full time PSN resource, increase the effectiveness of efforts to
target gangs and violent crime.

In FY 2011, OPM and OMB approved the implementation of Voluntary Early Retirement Authority
(VERA) and Voluntary Separation Incentive Payment (VSIP) incentives within ATF. These
authorities allow us to approve these separation incentives for up to 721 Bureau employees through
June 3, 2013. These authorities will assist ATF in reshaping and right-sizing our workforce, enabling
the Bureau to meet ongoing fiscal challenges.

The potential threat to public safety from criminal or terrorist theft and misuse of explosives cannot be
overstated. Because of the extremely high and unacceptable risk, ATF believes that more
comprehensive enforcement and regulatory efforts are essential to ensure the safe and secure storage
of explosive materials. ATF’s responsibility for public safety requires us to investigate all reported
thefts of explosives and conduct comprehensive inspections of all explosives licensees triennially.
ATF continues to work with the explosive industry manufacturers and users to improve the security,
safe handling, and storage of these materials.



                                                 -22-
The following are examples of issues that have the potential to affect ATF operations in multiple
regions:

   •	 As gangs spread out across the United States, they may be moving to areas where ATF does
      not have a presence (e.g., increased violence on the Southwest Border that spills over into the
      United States from Mexico).

   •	 In terms of workforce availability, cities that are experiencing dramatic increases in the cost of
      living will have difficulty providing rapid responses to emergency situations as personnel must
      travel long distances from residences; in addition, it may be difficult to retain qualified
      personnel in these areas.

   •	 The potential closure of additional military bases, as well as large companies and industries
      that employ thousands of people in particular geographic areas, may cause crime to increase.

   •	 Similarly, natural disasters such as hurricane, flood and wildfire will present economic

      challenges and the potential for an increase in crime.


   •	 Localities that are dealing with economic downturns and are having difficulty funding
      government services (e.g., police forces) will impact ATF operations, as local governments
      may not be able to provide officers to participate in ATF task forces.

   •	 An economic downturn may lead to a rise in arson fires.

   •	 Changes in state laws and changes in taxes have the potential to affect trafficking patterns (e.g.,
      firearms, alcohol and tobacco).

   •	 Several areas have expressed concern about the potential for violent acts by extremist

      environmental groups and organizations. 


   •	 Along with other agencies, ATF has contingency plans in place to continue operating if its own
      facilities and personnel are directly affected or threatened by terrorist acts. However, any such
      threats may have a negative impact on the Bureau’s ability to address other forms of violence.

IMPROPER PAYMENTS ELIMINATION AND RECOVERY ACT (IPERA)
REPORTING

In accordance with OMB Circular A-123, Appendix C, Requirements for Effective Measurement and
Remediation of Improper Payments, and the Departmental guidance for implementing the Improper
Payments Elimination and Recovery Act (IPERA), the Department implemented a top-down approach
to assess the risk of significant improper payments across all five of the Department’s mission-aligned
programs, and to identify and recapture improper payments through a payment recapture audit
program. The approach promotes consistency across the Department and enhances internal control
related to preventing, detecting, and recovering improper payments. Because of the OMB requirement




                                                -23-
to assess risk and report payment recapture audit activities by agency programs, the results of the
Department’s risk assessment and recapture activities are reported at the Department-level only.

In accordance with the Departmental approach for implementing IPERA, Alcohol, Tobacco, Firearms
and Explosives (ATF) assessed its activities for susceptibility to significant improper payments. ATF
also conducted its payment recapture audit program in accordance with the Departmental approach.
ATF provided the results of both the risk assessment and payment recapture audit activities to the
Department for the Department-level reporting in the FY 2011 Performance and Accountability
Report.

LIMITATIONS OF THE FINANCIAL STATEMENTS

   •	 The financial statements have been prepared to report the financial position and results of
      operations of ATF, pursuant to the requirements of 31 U.S.C. 3515(b).

   •	 While the statements have been prepared from the books and records of ATF in accordance
      with accounting principles generally accepted in the United States of America for Federal
      entities and the formats prescribed by OMB, the statements are in addition to the financial
      reports used to monitor and control budgetary resources which are prepared from the same
      books and records.

   •	 The statements should be read with the realization that they are for a component of the U.S.
      Government, a sovereign entity.




                                                -24-
Independent Auditors’ Reports





          -25-
This page intentionally left blank.




                -26-
                               INDEPENDENT AUDITORS’ REPORT ON FINANCIAL STATEMENTS


Acting Inspector General
United States Department of Justice


Acting Director
Bureau of Alcohol, Tobacco, Firearms and Explosives
United States Department of Justice


We have audited the accompanying Consolidated Balance Sheets of the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF), a component of the United States Department of Justice (DOJ), as of September 30, 2011 and
2010, and the related Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position,
Combined Statements of Budgetary Resources, and Combined Statements of Custodial Activity for the years then
ended. These financial statements are the responsibility of ATF’s management. Our responsibility is to express an
opinion on these financial statements based on our audits.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, as amended. Those standards and OMB Bulletin No. 07-04 require
that we plan and perform the audits to obtain reasonable assurance about whether the financial statements are
free of material misstatement. An audit includes consideration of internal control over financial reporting as a
basis for designing audit procedures that are appropriate in the circumstances, but not for the purpose of
expressing an opinion on the effectiveness of ATF’s internal control over financial reporting. Accordingly, we
express no such opinion. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting principles used, and
significant estimates made by management, as well as evaluating the overall financial statement presentation. We
believe that our audits provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material respects, the consolidated
financial position of the United States Department of Justice, Bureau of Alcohol, Tobacco, Firearms and Explosives
as of September 30, 2011 and 2010, and its consolidated net costs, consolidated changes in net position, combined
budgetary resources, and combined custodial activity for the years then ended, in conformity with accounting
principles generally accepted in the United States of America.

Accounting principles generally accepted in the United States of America and OMB Circular No. A-136, Financial
Reporting Requirements, require that the Management’s Discussion and Analysis and the Combining Statements of
Budgetary Resources be presented to supplement the basic financial statements. Such information, although not a
part of the basic financial statements, is required by the Federal Accounting Standards Advisory Board and OMB,
who consider it to be an essential part of financial reporting for placing the basic financial statements in an
appropriate operational, economic, or historical context. We have applied certain limited procedures to the




                                                       -27-
required supplementary information in accordance with auditing standards generally accepted in the United States
of America, which consisted of inquiries of management about the methods of preparing the information and
comparing the information for consistency with management’s responses to our inquiries, the basic financial
statements, and other knowledge we obtained during our audit of the basic financial statements. We do not
express an opinion or provide any assurance on the information because the limited procedures do not provide us
with sufficient evidence to express an opinion or provide any assurance.

In accordance with Government Auditing Standards, we have also issued our reports dated November 4, 2011, on
our consideration of ATF’s internal control over financial reporting and on our tests of its compliance with certain
provisions of applicable laws and regulations. The purpose of those reports is to describe the scope of our testing
of internal control over financial reporting and compliance and the results of that testing, and not to provide an
opinion on the internal control over financial reporting or on compliance. Those reports are an integral part of an
audit performed in accordance with Government Auditing Standards and should be read in conjunction with this
report in assessing the results of our audits.


COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 4, 2011
Alexandria, Virginia




                                                       -28-
                     INDEPENDENT AUDITORS’ REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING


Acting Inspector General
United States Department of Justice

Acting Director
Bureau of Alcohol, Tobacco, Firearms and Explosives
United States Department of Justice

We have audited the Consolidated Balance Sheets of the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF), a component of the United States Department of Justice (DOJ), as of September 30, 2011 and 2010, and the
related Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, Combined
Statements of Budgetary Resources, and Combined Statements of Custodial Activity for the years then ended, and
have issued our report thereon dated November 4, 2011. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

ATF’s management is responsible for establishing and maintaining effective internal control over financial
reporting. In planning and performing our fiscal year 2011 audit, we considered ATF’s internal control over
financial reporting as a basis for designing our auditing procedures for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the effectiveness of ATF’s internal
control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of ATF’s internal
control over financial reporting or on management’s assertion on internal control included in Management’s
Discussion and Analysis. We limited our internal control testing to only those controls necessary to achieve the
objectives described in Government Auditing Standards and OMB Bulletin No. 07-04. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982, such as controls relevant to ensuring efficient operations.

A deficiency in internal control exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or combination of deficiencies in internal
control, such that there is a reasonable possibility that a material misstatement of the entity’s financial statements
will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting was for the limited purpose described in the second
paragraph and was not designed to identify all deficiencies in internal control over financial reporting that might
be deficiencies, significant deficiencies or material weaknesses. We did not identify any deficiencies in internal
control over financial reporting that we consider to be material weaknesses, as defined above. However, we
identified certain deficiencies in internal control over financial reporting, described below, that, when combined,
we consider to be a significant deficiency in internal control over financial reporting. A significant deficiency is a




                                                        -29-
deficiency, or combination of deficiencies, in internal control that is less severe than a material weakness, yet
important enough to merit the attention of those charged with governance.

ATF’s response to the finding identified in our audit is included after each recommendation. We did not audit
ATF’s response and, accordingly, we express no opinion on it.

CONTROLS OVER FINANCIAL REPORTING NEED IMPROVEMENT (SIGNIFICANT DEFICIENCY) (NEW)

ATF’s internal control over financial reporting needs improvement to ensure that amounts reported in its financial
statements are valid, accurate, and complete. ATF personnel did not sufficiently and adequately reconcile general
ledger accounts, review transactions before posting them to the general ledger, and analyze account balances to
determine their validity. As a result, we identified numerous errors and misstatements in testing recorded
June 30, 2011 general ledger account balances, as discussed below.

PROPERTY, PLANT AND EQUIPMENT AND RELATED ACCOUNT BALANCES
ATF records certain accounting transactions related to its capitalized equipment accounts based on information
derived from a reconciliation between its equipment property schedules and its property management system
(Sunflower). ATF did not perform this reconciliation during the first nine months of fiscal year 2011, and made
numerous errors when performing a reconciliation to support its June 30, 2011 financial statement adjustments.
In addition, ATF maintains real property schedules to support construction in process, leasehold improvements,
and buildings, and internal use software, and software in development schedules. ATF did not update its software
and development schedules as of June 30, 2011 and made errors when updating its property schedules. As a
result, ATF’s June 30, 2011 financial statements contained the following misstatements.


               Account                                                         Known Errors
               Property, Plant and Equipment                        $1.3 million net understatement
               Depreciation Expense                                 $9.9 million net understatement
               Accumulated Depreciation                             $9.9 million net understatement
               Operating Expenses                                   $1.3 million net overstatement
               Financing Sources Transferred In                     $62 thousand overstatement

Equipment Schedule
•	 ATF performed the reconciliation of its capitalized equipment accounts after submitting the June 30, 2011
    financial statements, and identified a $762 thousand overstatement in the equipment account balance
    at June 30, 2011, and an $8.3 million understatement in accumulated depreciation. The accumulated
    depreciation understatement (and the corresponding understatement in depreciation expense) was primarily
    the result of two errors made when calculating and recording accumulated depreciation.

            ATF records current-year equipment depreciation expense by comparing accumulated depreciation in
             Sunflower reports to accumulated depreciation in its general ledger balances. In performing this
             analysis, ATF erroneously deducted $1.8 million for bulk asset depreciation from the Sunflower
             amount instead of adding it. This error resulted in an understatement of $3.6 million.

            ATF posted a $4.6 million on-top adjustment to its accumulated depreciation account to record fiscal
             year 2011 equipment disposals. However, this entry was not necessary because ATF had already
             posted an equipment depreciation entry adjusting the accumulated depreciation account to agree to
             Sunflower, which reflected the disposals in the accumulated depreciation balance.




                                                        -30-
•	   Accumulated depreciation was further understated by $1.5 million (and depreciation expense was
     understated by the same amount) because ATF transferred the cost and accumulated depreciation for assets
     acquired under an expired capital lease to equipment accounts on its general ledger in June 2011 but did not
     adjust the accumulated depreciation in Sunflower for these assets. Because ATF records accumulated
     depreciation based on Sunflower, the general ledger balance was understated.

•	   ATF’s reconciliation included an adjustment reducing the Sunflower balance by $1.4 million for four computer
     servers recorded in Sunflower during the first nine months of fiscal year 2011. The servers were properly
     included in Sunflower at June 30, 2011; they were not capitalized in the general ledger, however, because the
     original purchase was recorded to an incorrect budget object class. This error resulted in a $1.4 million
     understatement in the general ledger equipment account.

•	   ATF recorded an on-top adjustment to reclassify servers initially expensed to the equipment account. One
     asset was erroneously excluded from the adjustment, resulting in a $128 thousand understatement in
     equipment and an overstatement of the same amount in operating expenses.

•	   ATF erroneously recorded the value of a forfeited vehicle in Sunflower as $69 thousand instead of
     $6.9 thousand. The Sunflower report was used as the basis for a June 30, 2011 on-top adjustment to record
     this asset, resulting in a $69 thousand overstatement in the equipment account (the asset would not have
     been capitalized if recorded at its correct value), and a $20 thousand overstatement in accumulated
     depreciation.

•	   In subsequent account analyses, ATF identified $369 thousand posted to the general ledger equipment
     account for assets acquired in fiscal year 2011 that did not meet ATF’s capitalization threshold.

Real Property Schedules
Three of ten construction-in-progress projects tested, totaling $1.5 million, were completed prior to June 30, 2011
and should not have been included in construction-in-progress. ATF stated that $368 thousand of planning and
development costs under one project should have been expensed rather than included in construction-in-progress,
and the costs of the other two projects should have been reclassified to the buildings account. Based on the
completion dates for these two projects, depreciation expense and accumulated depreciation were understated by
$40 thousand.

Software Schedules
ATF did not analyze its capitalized internal use software and development costs and update its general ledger
during the first nine months of fiscal year 2011. We identified $1.3 million of software and development costs that
were incorrectly recorded as operating expenses, resulting in an understatement of capitalized software and an
overstatement of operating expenses.

In addition, ATF calculates and records real property and capitalized software depreciation based on an analysis
performed using Excel spreadsheets. The cost of one ADP software asset acquired in the prior fiscal year was not
recorded on the fiscal year 2011 depreciation spreadsheet, resulting in a $64 thousand understatement of
depreciation expense and accumulated depreciation.

During the fourth quarter of fiscal year 2011, ATF performed a comprehensive reconciliation between its
capitalized equipment property schedules and Sunflower, and updated its real property and software schedules.
Adherence to these control activities enabled ATF to correct the errors identified during our June 30, 2011 testing,
and to ensure the accuracy and completeness of its September 30, 2011 account balances.

UPWARD AND DOWNWARD ADJUSTMENTS
ATF began using a new unified financial management system (UFMS) in fiscal year 2011. The posting logic for
processing upward and downward adjustments was not configured properly within UFMS. As a result, ATF




                                                       -31-
recorded erroneous upward and downward adjustments related to prior year accruals, and did not detect and
correct the errors prior to preparing its June 30, 2011 financial statements. Specifically,

•	   ATF reversed its prior year accruals using standard vouchers with a posting logic that included upward and
     downward adjustments. This practice resulted in overstated downward adjustments of $11.1 million and
     overstated upward adjustments of $10.2 million.

•	   ATF posted standard vouchers to record the impact on prior year expired authority for payroll documents.
     The posting logic erroneously did not include the use of upward and downward adjustment accounts. This
     practice resulted in understated upward adjustments of $487 thousand.

During the fiscal year 2011 fourth quarter, ATF posted accounting entries to correct the errors noted as of
June 30, 2011. However, ATF did not successfully correct all of the errors, and did not perform analytical
procedures to ensure that its adjustments resulted in the expected account balances. Accordingly, we noted that
upward adjustments were overstated by $3.8 million and downward adjustments were overstated by $2.1 million
on ATF’s draft September 30, 2011 financial statements. ATF corrected the remaining errors prior to submitting its
final financial statements.

GROSS COSTS ON THE STATEMENT OF NET COSTS
ATF erroneously recorded a February 2011, $4.7 million journal voucher to reduce its unfunded leave liability to
the future funded expenses – Federal account. The leave liability and all associated costs are with the public, and
should have been posted to the future funded expenses – non-Federal account. As a result, ATF understated Gross
Costs – Intragovernmental and overstated Gross Costs – With the Public on its June 30, 2011 Statement of Net
Costs. ATF corrected this error prior to submitting its draft September 30, 2011 financial statements.

ACCOUNTS PAYABLE
In fiscal year 2011, ATF developed a statistical accrual methodology to estimate its liability to commercial vendors
for goods and services received but not invoiced. Based on a historical analysis of payment vouchers recorded in
prior years, ATF developed a weighted average accrual rate that it applied to open obligation balances to calculate
its June 30, 2011 accounts payable estimated accrual. Although the methodology was generally sound and
adequately supported, we identified the following issues with respect to ATF’s initial calculation and application of
the accrual rate.

Analysis to Develop Accrual Rate
The statistical accrual rate used to estimate accounts payable was misstated because of errors in identifying and
testing the expense population used to calculate the rate.

•	   ATF tested samples of non-Federal expenses for the three prior years to identify amounts that should have
     been accrued. However, the samples included expenses that ATF did not intend to include in its accrual
     population:

            ATF calculates a separate accrual for travel. However, ATF’s expense samples included
             128 transactions related to travel vouchers.

            ATF’s testing population, as described in its sampling methodology, should have excluded permanent
             change of station (PCS) documents because ATF performs a separate accrual for relocation expenses.
             However, ATF’s expense samples included 18 transactions for ATF’s relocation vendor, which were
             included in the separate PCS accrual.

•	   ATF tested expenses recorded in the first six or seven months of fiscal years 2009, 2010 and 2011 to
     determine whether they should have been accrued in the prior fiscal year. Included in these populations, and




                                                       -32-
     in ATF’s test samples, were payment vouchers funded with current year appropriations. Because this funding
     had not been available in the previous year, these payment vouchers would not include amounts incurred in
     previous years, and would not contribute to the accounts payable accrual at September 30, 2011. Sample
     transactions included 408 transactions funded with current appropriations.

Application of Accrual Rate
ATF’s June 30, 2011 accounts payable and operating expenses were misstated to the extent that the statistical
accrual rate was applied to travel and capital lease obligations.

•	   ATF’s June 30, 2011 on-top adjustments included a $1.2 million travel expense accrual. However, in
     calculating its statistical accounts payable estimate, ATF applied its accrual rate to obligations that included
     travel orders. This resulted in a duplicate accrual for travel expenses.

•	   ATF included capital lease obligations of $1.7 million in the non-Federal open obligations amount to which it
     applied the estimated accrual rate. However, ATF’s liability for these leases is recorded to a separate general
     ledger account, and these obligations should not be included in the statistical accounts payable accrual.

Based on its methodology, ATF adjusted the September 30, 2011 open obligations to which the statistical accrual
rate was applied, to exclude obligations that were incurred during the last 15 days of the fiscal year. These
obligations would have minimal, if any, incurred expenses as of September 30, 2011. However, ATF only excluded
new obligations and did not exclude a $19.9 million modification to an existing contract that was executed during
this time period. Therefore, ATF overstated its initial accrual by $5.9 million. ATF corrected its accrual calculation
to exclude the $19.9 million contract modification from the open obligations total prior to submitting its draft
financial statements.

OMB Circular A-123, Management’s Responsibility for Internal Control, states: “Management is responsible for
establishing and maintaining internal control to achieve the objectives of effective and efficient operations,
reliable financial reporting, and compliance with applicable laws and regulations. “ It further states: ”Transactions
should be promptly recorded, properly classified and accounted for in order to prepare timely accounts and
reliable financial and other reports.”

Government Accountability Office (GAO) Standards for Internal Control in the Federal Government (GAO/AIMD-00-
21.3.1) requires control activities to ensure that all transactions are completely and accurately recorded.

RECOMMENDATIONS

We recommend that ATF:
1.	 Establish stronger oversight controls for financial reporting and validation of recorded transactions, including:
    •	 timely and comprehensive reconciliation of general ledger account balances with subsidiary records;
    •	 review and approval of source documentation, calculations, and posting by someone other than the
        preparer; and
    •	 more thorough data analysis and managerial reviews, including performance of more analytical

        procedures at the transaction, and general ledger account level. (New)


Management Response:

ATF concurs with the recommendation and is implementing corrective actions to strengthen controls in financial
reporting to include validation of recorded transactions. We plan to publish policies, incorporate a more extensive
analysis and refine our timelines to allow for enhanced peer/management review.




                                                         -33-
2.	 Work with the Department to standardize recording and reporting of upward and downward adjustments.
    (New)

Management Response:

ATF concurs with the recommendation. We will work with the Department to standardize a business process for
recording and reporting upward and downward adjustments to prior year obligations.

3.	 Implement a quality control review process for second-party review of the annual statistical accounts payable
    accrual rate development, as well as the quarterly accrual calculations. (New)

Management Response:

ATF concurs with the recommendation and plans to implement a second party review to validate our accounts
payable estimation process and conduct quarterly quality control reviews on the statistical accounts payable
process.




                                           *        *          *     *

We provide the current status of the open recommendation from prior years in the following Exhibit.

This report is intended solely for the information and use of ATF’s management, DOJ Office of the Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and should
not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner
November 4, 2011
Alexandria, Virginia




                                                        -34-
                                                                                                                       EXHIBIT

                                STATUS OF PRIOR YEAR’S FINDING AND RECOMMENDATION

As required by Government Auditing Standards issued by the Comptroller General of the United States, and by
OMB Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended, we have reviewed the
status of the prior year finding and recommendation. The following table provides our assessment of the progress
ATF has made in correcting the previously identified significant deficiency. We also provide the Office of the
Inspector General report number where the deficiency was reported, our recommendation for improvement, and
the status of the recommendation as of the end of fiscal year 2011:

                       Significant
      Report                                                       Recommendation                                         Status
                       Deficiency
                                                                                                                                1
    Annual         Funds                     Recommendation No. 1: ATF needs to establish                         Completed
    Financial      management                stronger oversight controls for processing accounts
    Statement      controls need             payable, obligation, and deobligation transactions.
    Fiscal Year    improvement.
    2010
    Report
    No. 11-13


1
 Sufficient progress has been made in addressing this finding and the related recommendation such that the remaining risk of misstatement no
longer merits the attention by those charged with governance. Therefore, the condition has been downgraded to a deficiency in internal
control.




                                                                  -35-
This page intentionally left blank.




                -36-
                          INDEPENDENT AUDITORS’ REPORT ON COMPLIANCE AND OTHER MATTERS


Acting Inspector General
United States Department of Justice


Acting Director
Bureau of Alcohol, Tobacco, Firearms and Explosives
United States Department of Justice


We have audited the Consolidated Balance Sheets of the Bureau of Alcohol, Tobacco, Firearms and Explosives
(ATF), a component of the United States Department of Justice (DOJ), as of September 30, 2011 and 2010, and the
related Consolidated Statements of Net Cost, Consolidated Statements of Changes in Net Position, Combined
Statements of Budgetary Resources, and Combined Statements of Custodial Activity for the years then ended, and
have issued our report thereon dated November 4, 2011. We conducted our audits in accordance with auditing
standards generally accepted in the United States of America; standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States; and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as
amended.

ATF’s management is responsible for complying with laws, regulations, and contract agreements applicable to ATF.
As part of obtaining reasonable assurance about whether ATF’s fiscal year 2011 financial statements are free of
material misstatement, we performed tests of its compliance with certain provisions of laws, regulations, and
contract agreements, noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain provisions of other laws and regulations specified in OMB Bulletin
No. 07-04, including the provisions referred to in Section 803(a) of the Federal Financial Management
Improvement Act of 1996 (FFMIA). However, providing an opinion on compliance with those provisions was not
an objective of our audit, and accordingly, we do not express such an opinion. The results of our tests of
compliance described in the preceding paragraph of this report, exclusive of those referred to in FFMIA, disclosed
no instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards and OMB Bulletin No. 07-04.

Under FFMIA, we are required to report whether ATF’s financial management systems substantially comply with
federal financial management system requirements, applicable federal accounting standards, and application of
the United States Standard General Ledger at the transaction level. To meet this requirement, we performed tests
of compliance with FFMIA Section 803(a) requirements.

The results of our tests of FFMIA disclosed no instances in which ATF’s financial management systems did not
substantially comply with the requirements described in the preceding paragraph.




                                                      -37-
This report is intended solely for the information and use of ATF’s management, DOJ Office of the Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress; it is not intended to be and should
not be used by anyone other than these specified parties.


COTTON & COMPANY LLP




Catherine L. Nocera, CPA, CISA
Partner

November 4, 2011
Alexandria, Virginia




                                                     -38-
          Principal Financial Statements
                and Related Notes

See Independent Auditors’ Report on Financial Statements




                        -39-
This page intentionally left blank.




                -40-
                                      U.S. Department of Justice

                         Bureau of Alcohol, Tobacco, Firearms and Explosives

                                    Consolidated Balance Sheets

                                 As of September 30, 2011 and 2010

Dollars in Thousands                                                                                     2011          2010

ASSETS (Note 2)
      Intragovernmental
          Fund Balance with U.S. Treasury (Note 3)                                        $        241,768      $   261,136
          Accounts Receivable (Note 5)                                                              27,803           28,291
          Other Assets (Note 8)                                                                      7,643           14,349
      Total Intragovernmental                                                                      277,214          303,776
      Cash and Monetary Assets (Note 4)                                                             68,184           49,009
      Accounts Receivable, Net (Note 5)                                                                256              162
      General Property, Plant and Equipment, Net (Note 7)                                          210,262          207,118
      Advances and Prepayments                                                                         786            1,669
Total Assets                                                                              $       556,702       $   561,734
LIABILITIES (Note 9)
      Intragovernmental
          Accounts Payable                                                                $            14,942   $    14,803
          Accrued Federal Employees' Compensation Act Liabilities                                      20,074        19,567
          Other Liabilities (Note 12)                                                                  10,474         9,393
      Total Intragovernmental                                                                          45,490        43,763

      Accounts Payable                                                                              45,450           45,744
      Actuarial Federal Employees' Compensation Act Liabilities                                    110,697          107,012
      Accrued Payroll and Benefits                                                                  34,276           31,560
      Accrued Annual and Compensatory Leave Liabilities                                             51,897           52,408
      Seized Cash and Monetary Instruments (Notes 4 and 11)                                          3,527            3,010
      Contingent Liabilities (Note 13)                                                                   -            3,505
      Capital Lease Liabilities (Note 10)                                                            1,071            1,875
      Other Liabilities (Note 12)                                                                   59,905           41,416
Total Liabilities                                                                         $       352,313       $   330,293
NET POSITION
      Unexpended Appropriations - All Other Funds                                         $        174,210      $   202,183
      Cumulative Results of Operations - All Other Funds                                            30,179           29,258
Total Net Position                                                                        $       204,389       $   231,441
Total Liabilities and Net Position                                                        $       556,702       $   561,734
                          The accompanying notes are an integral part of these financial statements.




                                                            -41-
                                          U.S. Department of Justice
                            Bureau of Alcohol, Tobacco, Firearms and Explosives
                                     Consolidated Statements of Net Cost
                           For the Fiscal Years Ended September 30, 2011 and 2010

Dollars in Thousands

                                  Gross Costs                                     Less: Earned Revenues
                                                                                                                            Net Cost of
                    Intra­            With the                           Intra­              With the                       Operations
          FY     governmental          Public           Total         governmental            Public            Total        (Note 14)


Goal 1    2011    $           -   $       5,649     $       5,649     $             -    $              -   $           -   $      5,649
          2010    $           -   $       7,185     $       7,185     $             -    $              -   $           -   $      7,185

Goal 2    2011         381,239          886,810         1,268,049             90,650               650           91,300         1,176,749
          2010         365,344          900,590         1,265,934             90,417               742           91,159         1,174,775

Total     2011    $    381,239    $     892,459     $ 1,273,698       $       90,650     $         650      $    91,300     $ 1,182,398
          2010    $    365,344    $     907,775     $ 1,273,119       $       90,417     $         742      $    91,159     $ 1,181,960


Goal 1   Prevent Terrorism and Promote the Nation's Security
Goal 2   Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the American People


                              The accompanying notes are an integral part of these financial statements.




                                                             -42-
                                      U.S. Department of Justice

                        Bureau of Alcohol, Tobacco, Firearms and Explosives

                         Consolidated Statements of Changes in Net Position

                       For the Fiscal Years Ended September 30, 2011 and 2010

Dollars in Thousands                                                                                       2011             2010
Unexpended Appropriations
  Beginning Balances                                                                        $        202,183      $     183,607

   Budgetary Financing Sources
      Appropriations Received                                                                      1,114,772           1,158,272
      Appropriations Transferred-In/Out                                                               (7,892)             (3,318)
      Other Adjustments                                                                               (2,231)                  -
      Appropriations Used                                                                         (1,132,622)         (1,136,378)
   Total Budgetary Financing Sources                                                                 (27,973)             18,576

   Unexpended Appropriations                                                                $        174,210      $     202,183

Cumulative Results of Operations
  Beginning Balances                                                                        $            29,258   $      33,169

   Budgetary Financing Sources
      Appropriations Used                                                                          1,132,622          1,136,378

   Other Financing Sources
      Transfers-In/Out Without Reimbursement                                                              3,153           2,407
      Imputed Financing from Costs Absorbed
         by Others (Note 15)                                                                             47,544          39,264

   Total Financing Sources                                                                         1,183,319          1,178,049

   Net Cost of Operations                                                                         (1,182,398)         (1,181,960)

   Net Change                                                                                              921            (3,911)

   Cumulative Results of Operations                                                         $            30,179   $      29,258

Net Position                                                                                $        204,389      $     231,441

                            The accompanying notes are an integral part of these financial statements.




                                                                 -43-
                                    U.S. Department of Justice

                      Bureau of Alcohol, Tobacco, Firearms and Explosives

                          Combined Statements of Budgetary Resources

                     For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands                                                                                 2011            2010

Budgetary Resources
  Unobligated Balance, Brought Forward, October 1                                     $        110,131      $      82,195

  Recoveries of Prior Year Unpaid Obligations                                                   21,159             38,221

  Budget Authority
     Appropriations Received                                                                 1,114,772          1,158,272
     Spending Authority from Offsetting Collections
         Earned
            Collected                                                                           95,965             81,707
            Change in Receivables from Federal Sources                                            (488)             9,679
         Change in Unfilled Customer Orders
            Without Advance from Federal Sources                                               (10,057)             1,509
  Subtotal Budget Authority                                                                  1,200,192          1,251,167

  Nonexpenditure Transfers, Net, Actual                                                          (7,892)           (3,318)
  Permanently not Available                                                                      (2,231)                -

Total Budgetary Resources (Note 16)                                                   $    1,321,359        $   1,368,265

                        The accompanying notes are an integral part of these financial statements.




                                                         -44-
                                     U.S. Department of Justice

                       Bureau of Alcohol, Tobacco, Firearms and Explosives

                     Combined Statements of Budgetary Resources (Continued)

                      For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands                                                                                  2011            2010

Status of Budgetary Resources
  Obligations Incurred
    Direct                                                                            $      1,174,282       $   1,155,484
    Reimbursable                                                                                86,110             102,650
        Total Obligations Incurred (Note 16)                                                 1,260,392           1,258,134
  Unobligated Balance - Available
    Apportioned                                                                                  38,931             53,461
        Total Unobligated Balance - Available                                                    38,931             53,461
  Unobligated Balance not Available                                                              22,036             56,670
Total Status of Budgetary Resources                                                   $     1,321,359        $   1,368,265

Change in Obligated Balance
  Obligated Balance, Net - Brought Forward, October 1
     Unpaid Obligations                                                               $        226,042       $     238,351
     Less: Uncollected Customer Payments from Federal Sources                                   70,397              59,209
         Total Unpaid Obligated Balance, Net - Brought Forward, October 1                      155,645             179,142
  Obligations Incurred, Net                                                                  1,260,392           1,258,134
  Less: Gross Outlays                                                                        1,219,844           1,232,222
  Less: Recoveries of Prior Year Unpaid Obligations, Actual                                     21,159              38,221
  Change in Uncollected Customer Payments from Federal Sources                                  10,545             (11,188)

  Obligated Balance, Net - End of Period
    Unpaid Obligations                                                                         245,431             226,042
    Less: Uncollected Customer Payments from Federal Sources                                    59,852              70,397
        Total Unpaid Obligated Balance, Net - End of Period                           $       185,579        $    155,645

Net Outlays
  Gross Outlays                                                                       $      1,219,844       $   1,232,222
  Less: Offsetting Collections                                                                  95,965              81,707
  Less: Distributed Offsetting Receipts (Note 16)                                                3,892                 622
Total Net Outlays (Note 16)                                                           $     1,119,987        $   1,149,893

                         The accompanying notes are an integral part of these financial statements.




                                                          -45-
                                      U.S. Department of Justice

                        Bureau of Alcohol, Tobacco, Firearms and Explosives

                              Combined Statements of Custodial Activity

                       For the Fiscal Years Ended September 30, 2011 and 2010


Dollars in Thousands                                                                               2011            2010

Revenue Activity
 Sources of Cash Collections
    Fees and Licenses                                                               $            17,437      $   13,985
    Fines, Penalties and Restitution Payments - Civil                                                20              22
    Fines, Penalties and Restitution Payments - Criminal                                             95              44
    Miscellaneous                                                                                 3,892             623

        Total Cash Collections                                                                   21,444          14,674
 Accrual Adjustments                                                                                    26           60

 Total Custodial Revenue                                                                         21,470          14,734

Disposition of Collections
    Transferred to Federal Agencies
        U.S. Department of the Treasury                                                         (21,138)         (14,345)
    Refunds and Other Payments                                                                     (332)           (389)

Net Custodial Activity (Note 17)                                                    $                    -   $         -

                           The accompanying notes are an integral part of these financial statements.




                                                            -46-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)

1. Summary of Significant Accounting Policies

       A. Reporting Entity

       The Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF or the Bureau),
       a principal law enforcement agency, is within the Department of Justice (DOJ or
       the Department). ATF’s mission is to reduce violent crime, prevent terrorism,
       and promote the Nation’s security. The men and women of ATF perform the dual
       responsibilities of enforcing Federal criminal laws and regulating the firearms and
       explosive industries.

       B. Basis of Presentation

       These financial statements have been prepared from the books and records of
       ATF in accordance with United States generally accepted accounting principles
       issued by the Federal Accounting Standards Advisory Board (FASAB) and
       presentation guidelines in the Office of Management and Budget (OMB) Circular
       A-136, “Financial Reporting Requirements.” These financial statements are
       different from the financial reports prepared pursuant to OMB directives which
       are used to monitor and control the use of ATF’s budgetary resources.

       Throughout these financial statements, intragovernmental assets, liabilities,
       earned revenues, and costs have been classified according to the type of entity
       with which the transactions are made. Intragovernmental assets and liabilities are
       those from or to other Federal entities. Intragovernmental earned revenues are
       collections or accruals of revenue from other Federal entities and
       intragovernmental costs are payments or accruals of payments to other Federal
       entities.

       To ensure that ATF’s financial statements are meaningful at the entity level and to
       enhance reporting consistency within the Department, Other Assets and Other
       Liabilities as defined by OMB Circular A-136 have been disaggregated on the
       balance sheet. These include Advances and Prepayments, Accrued Federal
       Employees’ Compensation Act Liabilities, Accrued Payroll and Benefits, Accrued
       Annual and Compensatory Leave Liabilities, Seized Cash and Monetary
       Instruments, Capital Lease Liabilities and Contingent Liabilities.




                                           -47-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

       C. Basis of Consolidation

       The consolidated/combined financial statements include the accounts of ATF. All
       significant proprietary intra-entity transactions and balances have been eliminated
       in consolidation. The Statements of Budgetary Resources and Statements of
       Custodial Activity are combined statements for FYs 2011 and 2010, and as such,
       intra-entity transactions have not been eliminated.

       D. Basis of Accounting

       Transactions are recorded on the accrual and budgetary basis of accounting.
       Under the accrual basis, revenues are recorded when earned and expenses are
       recorded when incurred, regardless of when cash is exchanged. Under the
       budgetary basis, however, funds availability is recorded based upon legal
       considerations and constraints. As a result, certain line items on the proprietary
       financial statements may not equal similar line items on the budgetary financial
       statements. The Combined Statements of Custodial Activity are presented on a
       modified cash basis. Civil and criminal debt collections are recorded when the
       Department receives payment from debtors to the Federal Government. Accrual
       adjustments are made related to collections of fees and licenses.

       E. Non-Entity Assets

       Non-entity assets are those assets that are held by ATF but are not available for
       use by ATF. Non-entity assets are reported on ATF’s Consolidated Balance
       Sheets as accounts receivable, cash, and other monetary assets. Non-entity
       accounts receivable consists of taxpayer debts due to ATF. Non-entity assets
       equal non-entity liabilities. Non-entity assets are not considered a financing
       source (revenue) available to offset operating expenses of ATF.

       F. Fund Balance with U.S. Treasury and Cash

       The Department of the Treasury (Treasury) processes the Bureau’s cash receipts
       and disbursements. Entity fund balance with Treasury and cash are primarily
       appropriated funds available to pay current liabilities and to finance authorized
       purchase commitments.

       ATF does not have disbursing authority. ATF maintains cash in commercial
       banks to facilitate the replenishment of the Bureau’s imprest funds as well as
       seized cash held for evidence, and special operations.




                                           -48-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

       G. Accounts Receivable

       Intragovernmental accounts receivable consist of amounts due under reimbursable
       agreements with Federal entities for services provided by ATF. Accounts
       receivable due from Federal agencies are considered to be fully collectible.
       Public accounts receivable consists of employee and vendor accounts receivable.
       An allowance for doubtful accounts is established for public accounts receivable
       when it is more likely than not that the accounts receivable will not be collected.
       The allowance is based on the debtor’s ability to pay, debtor’s payment record,
       and probability of recovery.

       H. General Property, Plant and Equipment

       Personal property and equipment purchased with a cost greater than or equal to
       $25,000 (dollars) per unit and a useful life of two years or more, is capitalized and
       depreciated. Other equipment is expensed when purchased. Real property and
       leasehold improvements with a cost greater than or equal to $100,000 (dollars)
       per unit, and a useful life of two years or more, is capitalized and depreciated.
       Normal repairs and maintenance are charged to expense as incurred.

       ATF also capitalizes internal use software when costs are greater than or equal to
       $500,000 (dollars). The same threshold also applies to enhancements that add
       significant functionality to the software. ATF amortizes business software over
       seven years and personal productivity software over three years.

       As a Bureau under Treasury, ATF’s policy was to capitalize bulk purchases that
       are defined as purchases of multiple similar items that on an individual basis do
       not meet the capitalization threshold, but when purchased as a lot, exceeded
       $250,000 (dollars). This policy was consistent with Treasury’s policy. The
       Department does not have a similar policy; therefore, beginning January
       24, 2003 (the date of transfer to DOJ), such bulk purchases are no longer
       capitalized. Due to the large dollar amount of capitalized bulk purchases, ATF
       has been allowed to let them depreciate over time versus writing them off all at
       once. ATF has approximately $97 (net) of bulk purchases remaining in General
       Property, Plant and Equipment as of September 30, 2011, which will be fully
       depreciated by the end of FY 2013.




                                           -49-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

       I. Advances and Prepayments

       Prepayments are payments made to individuals or other organizations to cover certain
       periodic expenses before those expenses are incurred. In accordance with Public Law
       91-614, ATF participates in the Treasury’s Working Capital Fund from which it
       receives services on a reimbursable basis. Payments made in advance are authorized
       for services that have been deemed more advantageous and economical when
       provided centrally. Advances and prepayments involving other Federal agencies are
       classified as Other Assets on the Balance Sheet.

       ATF prepaid to the General Services Administration (GSA) $28,441 in costs related
       to the construction of its new headquarters building. Those prepaid costs were
       considered construction in progress and land acquisition when they occurred. ATF
       does not hold title to the land. The building was substantially complete in FY 2007
       and the prepaid costs were transferred out of construction in progress and land and
       recognized as a prepayment. The prepaid costs are being expensed over five years in
       accordance with rent credits specified in the GSA occupancy agreement.

       J. Forfeited and Seized Property

       ATF seizes property in consequence of a violation of public law. Generally, seized
       property includes monetary instruments, various types of weapons, ammunition and
       explosives. Seized property can be held for evidence, forfeited, or destroyed. All
       property seized for evidence is maintained by ATF. This property is recorded at the
       estimated fair market value at the time of the seizure and is not adjusted for any
       subsequent increases and decreases in estimated fair value. ATF discloses the value
       of personal property when the individual item seized is worth $1,000 (dollars) or
       more at the time of seizure. Seized cash is recorded as an asset under Cash and
       Monetary Assets. The offsetting liability is recorded under Seized Cash and
       Monetary Instruments.

       ATF also participates in the DOJ Assets Forfeiture Fund (the Fund). ATF is
       reimbursed by the Fund for carrying out forfeiture activities. ATF contributes
       forfeited property to the Fund. Firearms that are seized for forfeiture are either
       returned, destroyed, or placed into official use. Non-prohibited property includes
       property such as real estate, vehicles, cash, Title I Firearms (as defined in Title 18
       USC Section 922(a) (3)), ammunition and other personal property that is in itself
       legal to possess. Title 18 USC 3051 and the regulations therein, prohibit the sale of
       firearms or the transfer of firearms owned by the United States to anyone other than
       another Federal government entity. ATF’s seized prohibited property (contraband)
       may include illegal drugs and untaxed liquor. All other types of property are legal to
       possess, however, the possessor may be prohibited from possession.




                                           -50-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1   Summary of Significant Accounting Policies (continued)

       J. Forfeited and Seized Property (continued)

       Quantities of illegal drugs and firearms held as evidence are disclosed in Note 6 in
       accordance with Statement of Federal Financial Accounting Standards (SFFAS)
       No. 3, Accounting for Inventory and Related Property, and Federal Financial
       Accounting and Auditing Technical Release No. 4, Reporting on Non-Valued
       Seized and Forfeited Property. Reported quantities of drugs include only
       substances over one kilogram (KG) that are laboratory-analyzed and confirmed.

       K. Liabilities

       Liabilities represent the amount of monies, or other resources, that are likely to be
       paid by ATF as the result of a transaction or event. However, no liability can be
       paid by ATF without an appropriation. Liabilities for which an appropriation has
       not been enacted, and for which there is uncertainty an appropriation will be
       enacted, are classified as liabilities not covered by budgetary resources. Also,
       liabilities of ATF arising from other than contracts can be abrogated by the
       Government acting in its sovereign capacity.

       Intragovernmental liabilities consist of amounts payable to the Treasury for
       custodial fees collected by ATF, payables to other Federal agencies, and accrued
       FECA charges. In addition, public liabilities are amounts due to be refunded to
       taxpayers and other payables due to public vendors.

       Other Liabilities consists primarily of project generated proceeds. The proceeds
       will be transferred to the Department of the Treasury General Fund at the
       conclusion of the project.

       L. Contingencies and Commitments

       ATF is party to various administrative proceedings, legal actions, and claims.
       The balance sheet includes an estimated liability for those legal actions where
       management and the Chief Counsel consider adverse decisions “probable” and
       amounts are reasonably estimable. Legal actions where management and the
       Chief Counsel consider adverse decisions “probable” or “reasonably possible”
       and the amounts are reasonably estimable are disclosed in Note 13, Contingencies
       and Commitments. However, there are cases where amounts have not been
       accrued or disclosed because the amounts of the potential loss cannot be estimated
       or the likelihood of an unfavorable outcome is considered “remote.”




                                           -51-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

       M. Annual, Sick, and Other Leave

       Annual and compensatory leave earned by ATF employees, but not yet used, is
       reported as an accrued liability. Annual leave is accrued as it is earned by
       employees and is included in personnel compensation and benefit costs. An
       unfunded liability is recognized for earned but unused annual leave since from a
       budgetary standpoint, this annual leave will be paid from future appropriations
       when the leave is used by employees rather than from amounts that were
       appropriated to ATF as of the date of the financial statements. The amount
       accrued is based upon current pay rates of the employees. Sick leave and other
       types of leave are expensed when used and no liability is recognized for these
       amounts, as employees do not vest in these benefits.

       N. Interest on Late Payments

       Pursuant to the Prompt Payment Act, 31 U.S.C. § 3901-3907, Federal agencies
       must pay interest on payments for goods or services made to business concerns
       after the due date. The due date is generally 30 days after receipt of a proper
       invoice and acceptance of the goods or services.

       O. Retirement Plans

       Most ATF employees hired prior to January 1, 1984 participate in the Civil
       Service Retirement System (CSRS), to which ATF contributes 7 percent of basic
       pay (7.5 percent for those personnel classified as law enforcement agents) and the
       employee contributes 7 percent (7.5 percent for those personnel classified as law
       enforcement agents) for a total contribution rate of 14 percent in both FYs 2011
       and 2010 (15 percent for those personnel classified as law enforcement agents).
       On January 1, 1984, the Federal Employees’ Retirement System (FERS) went
       into effect pursuant to Public Law 99-335. Employees hired after December 31,
       1983 are automatically covered by FERS and Social Security. For most
       employees hired after December 31, 1983, ATF also contributes the employer’s
       matching share of Social Security. For the FERS basic benefit, the employee
       contributes 0.8 percent of basic pay (1.3 percent for those personnel classified as
       law enforcement agents) while ATF contributes 11.7 percent (25.7 percent for
       those personnel classified as law enforcement agents). The total contribution was
       12.5 percent in FY 2011 (27.0 percent for those personnel classified as law
       enforcement agents). The cost of providing a FERS basic benefit as provided by
       the Office of Personnel Management (OPM) is equal to the amounts contributed
       by ATF and the employees because the plan is fully funded.




                                           -52-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

       O. Retirement Plans (continued)

       All employees are eligible to contribute to the Thrift Savings Plan (TSP). For
       those employees participating in FERS, a TSP account is automatically
       established, and ATF makes a mandatory one percent contribution to this account.

       In addition, ATF makes matching contributions, ranging from one to four percent,
       for FERS eligible employees who contribute to their TSP accounts. Matching
       contributions are not made to the TSP accounts established by CSRS employees.

       ATF recognizes the full cost of providing future pension and other retirement
       benefits (ORB) for current employees as required by the Statements of Federal
       Financial Accounting Standards (SFFAS) No. 5, “Accounting for Liabilities of
       the Federal Government.” Full cost includes pension and ORB contributions paid
       out of Bureau appropriations and costs financed by the OPM. Costs financed by
       OPM are also reported in the accompanying financial statements as an imputed
       financing revenue source.

       Reporting amounts such as plan assets, accumulated plan benefits, or unfunded
       liabilities, if any, is the responsibility of OPM.

       P. Federal Employee Compensation Benefits

       The Federal Employees’ Compensation Act (FECA) provides income and
       medical cost protection to covered Federal civilian employees injured on the job
       and employees who have incurred a work-related injury or occupational disease.
       The future workers’ compensation estimates were generated from an application
       of actuarial procedures developed to estimate the liability for FECA benefits. The
       actuarial liability estimates for FECA benefits include the expected liability for
       death, disability, medical and miscellaneous costs for approved compensation
       cases. The liability is determined using the paid losses extrapolation method,
       which is calculated over the next 37 year period. This method utilizes historical
       benefit payment patterns related to a specific incurred period to predict ultimate
       payments related to that period. The projected annual benefit payments were
       discounted to present value.

       Claims are paid for ATF employees by the Department of Labor (DOL) from the
       FECA fund, for which ATF reimburses DOL. The accrued liability represents
       claims paid by DOL for ATF employees, for which the fund has not been
       reimbursed. The actuarial liability is an estimate of future costs to be paid on
       claims made by ATF employees. The estimated future cost is not obligated
       against budgetary resources until the year in which the cost is billed to ATF.



                                           -53-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

       Q. Intragovernmental Activity

       Intragovernmental costs and exchange revenue represent transactions made
       between two reporting entities within the Federal government. Costs and earned
       revenues with the public represent exchange transactions made between the
       reporting entity and a non-federal entity. The classification of revenue or cost as
       “intragovernmental” or “with the public” is defined on a transaction-by­
       transaction basis. The purpose of this classification is to enable the Federal
       government to prepare consolidated financial statements, not to match public and
       intragovernmental revenue with the costs incurred to produce public and
       intragovernmental revenue.

       R. Revenues and Other Financing Sources

               (1) Exchange Revenues

               Exchange revenues are inflows of resources to a government entity that
               the entity has earned by providing something of value to the public or
               another government entity at a price. ATF, currently, has agreements in
               place which are reimbursed through the Department of Justice Assets
               Forfeiture Fund. In addition, ATF provides a number of services
               including law enforcement, training and professional development, and
               science and information technology to other government agencies through
               reimbursable agreements. Exchange revenues are presented on the
               Consolidated Statements of Net Cost.

               Most of ATF’s exchange revenues from other government agencies are
               from an agreement with the U.S. Department of State to train explosives-
               detecting canines for foreign countries. The canines are used in foreign
               countries to combat terrorism and protect American travelers abroad.
               Similarly, ATF is funded on a reimbursable basis for activity related to
               enforcement of the Controlled Substances Act.

               (2) Nonexchange Revenues

               Nonexchange revenues are inflows of resources that the government
               demands or receives by donation. For ATF, most non-exchange revenues
               result from collecting fees from firearms and explosives industries. As
               ATF is unable to keep any of these collections, they are recognized as
               custodial revenue and a corresponding liability when collected.




                                           -54-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

               (2) Nonexchange Revenues (continued)

               Nonexchange revenues are presented on the Combined Statements of
               Custodial Activity as all amounts are transferred to the Treasury General
               Fund.

               (3) Other Financing Sources

               Other financing sources provide inflows of resources during the reporting
               period and include appropriations used and financing imputed with respect
               to any cost subsidies. Unexpended appropriations are recognized
               separately in determining net position but are not financing sources until
               used.

               ATF receives the majority of the funding needed to support its operations
               through congressional appropriations. The appropriations received are
               annual, multi-year, and no-year funding that may be used, within statutory
               limits, for operating and capital expenditures (primarily equipment,
               furniture, and furnishings). Appropriations are also received to meet
               specific program objectives. The Bureau’s activities are funded by the
               following:

                     15110700 - Salaries and Expenses Appropriation and
                         Reimbursable Authority
                     15X0700 - No-year Salaries and Expenses and Spectrum
                         Relocation Fund
                     15X0720 - No year Appropriation for Construction Funding
                     1510/110700 - Southwest Border Supplemental
                     1511/120700 - Two-year Appropriation for High Intensity Drug
                         Trafficking Area Initiative
                     15X8526 – Microstamping




                                           -55-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)

               (3) Other Financing Sources (continued)

               All of these appropriations and the related gross costs, revenues, and net
               costs as shown in the Consolidated Statements of Net Cost are in Federal
               budget functional classification 750, Administration of Justice. The
               accompanying financial statements include the accounts of the above six
               Treasury symbols as well as eleven expired funds which are under ATF
               control.
               Appropriations are recognized as a financing source at the time the related
               program or administrative expenditure is incurred. Costs financed by
               other Federal entities on behalf of ATF are recognized as imputed
               financing sources as required by SFFAS No. 5.
               Other financing sources also include non-financial distributions, such as
               seized property, received by ATF from the DOJ Assets Forfeiture Fund.
               These resources are used in law enforcement initiatives.

       S. Earmarked Funds

       Statement of Federal Financial Accounting Standards (SFFAS) No. 27,
       “Identifying and Reporting Earmarked Funds” defines ‘earmarked funds’ as being
       financed by specifically identified revenues, often supplemented by other
       financing sources, which remain available over time. These specifically identified
       revenues and other financing sources are required by statute to be used for
       designated activities, benefits, or purposes, and must be accounted for separately
       from the Government’s general revenues. The three required criteria for an
       earmarked fund are:

               1. 	   A statute committing the Federal Government to use specifically
                      identified revenues and other financing sources only for
                      designated activities, benefits, or purposes;
               2. 	   Explicit authority for the earmarked fund to retain revenues and
                      other financing sources not used in the current period for future use
                      to finance the designated activities, benefits, or purposes; and
               3. 	   A requirement to account for and report on the receipt, use, and
                      retention of the revenues and other financing sources that
                      distinguishes the earmarked fund from the Government’s general
                      revenues.

       ATF does not have any funds that meet the definition of an Earmarked Fund.




                                           -56-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


   1. Summary of Significant Accounting Policies (continued)


       T. Tax Exempt Status

       As an agency of the Federal Government, ATF is exempt from all income taxes
       imposed by any governing body whether it be a Federal, state, commonwealth,
       local, or foreign government.

       U. Use of Estimates

       The preparation of financial statements requires management to make certain
       estimates and assumptions that affect the reported amounts of assets and liabilities
       and the reported amounts of revenue and expenses during the reporting period.
       Actual results could differ from those estimates.

       V. Reclassifications

       The FY 2010 financial statements were reclassified to conform to the FY 2011
       Departmental financial statement presentation requirements. The reclassifications
       had no material effect on total assets, liabilities, net position, change in net
       position or budgetary resources as previously reported.

       W. Subsequent Events

       Subsequent events and transactions occurring after September 30, 2011 through
       the date of the auditors’ opinion have been evaluated for potential recognition or
       disclosure in the financial statements. The date of the auditors’ opinion also
       represents the date that the financial statements were available to be issued.




                                           -57-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


2.   Non-Entity Assets

Non-entity assets are assets that are held by ATF but are not available for use by ATF.
Non-entity assets are primarily project-generated proceeds and seized cash.

As of September 30, 2011 and 2010
                                               2011             2010
With the Public
 Cash and Monetary Assets                  $     63,406     $     44,372

    Total Entity Assets                         493,296          517,362

    Total Assets                           $    556,702     $    561,734





                                           -58-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


3. Fund Balance with U.S. Treasury

As of September 30, 2011 and 2010
                                                          2011           2010
 Fund Balances
   Trust Funds                                        $     1,029    $     1,029
   General Funds                                          240,739        260,107
     Total Fund Balances with U.S. Treasury           $   241,768    $   261,136

 Status of Fund Balances
   Unobligated Balance - Available                $        38,931    $    53,461
   Unobligated Balance - Unavailable                       22,036         56,670
   Obligated Balance not yet Disbursed                    185,579        155,645
   Other Funds (With)/Without Budgetary Resources          (4,778)        (4,640)
     Total Status of Fund Balances                $       241,768    $   261,136


As of September 30, 2011 and 2010, Other Funds (With)/Without Budgetary Resources
consisted of amounts held in other entity funds as Agent Cashier.




                                           -59-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


4. Cash and Monetary Assets

As of September 30, 2011 and 2010
                                                2011            2010
 Cash
   Imprest Funds                            $      4,778    $     4,637
   Other Cash                                     59,879         41,362
                                                  64,657         45,999
 Monetary Assets
  Seized Monetary Instruments                      3,527          3,010
    Total Cash and Monetary Assets          $     68,184    $    49,009



Cash available for ATF use represents agent cashier (imprest) funds. The agent cashier
funds are used to finance the purchase of evidence and information from informants in
open ATF investigations and enforcement operations. Other Cash consists of project –
generated proceeds from undercover operations.


5. Accounts Receivable

As of September 30, 2011 and 2010
                                                2011            2010
Intragovernmental
   Accounts Receivable                      $     27,803    $     28,291

With the Public
 Accounts Receivable                                 315             203
 Allowance for Uncollectible Accounts                (59)            (41)
    Total With the Public                            256             162
    Total Accounts Receivable              $      28,059    $     28,453


Intragovernmental accounts receivable consist of amounts due under reimbursable
agreements with Federal entities for services provided by ATF. Accounts receivable due
from Federal agencies are considered to be fully collectible. Public accounts receivable
consist of employee and vendor accounts receivables.




                                           -60-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


6. Seized Property

Property is seized during the course of an investigation. This property is considered
contraband, evidence of a crime, or subject to forfeiture. All seized for forfeiture
property is reported by the DOJ Assets Forfeiture Fund. The seized for evidence
personal property category includes computers, vehicles, and other miscellaneous items.
Other seized property includes monetary instruments, handguns, machine guns, rifles and
shotguns. Seized property that will be destroyed, such as firearms, is reported as the
number of items seized, and is not considered to have a value.

Seized monetary instruments were valued at $3,527 as of September 30, 2011, and
$3,010 as of September 30, 2010. Seized cash deposited is recorded as an asset under
cash and monetary assets along with the offsetting liability under seized cash and
monetary instruments.




                                           -61-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


6. Seized Property (continued)

For the Fiscal Year Ended September 30, 2011

   Seized Property             Beginning    Adjust­                                       Ending
      Category                  Balance      ments          Seizures Disposals            Balance

Seized for Evidence

Seized Cash Deposited
and Seized Monetary
Instruments           Value    $    3,010   $        -         $ 6,789       $ 6,272 $       3,527

Personal Property     Number          177     (105) *                6              36         42
                      Value  $      1,725   $ (977)            $    38       $     496 $      290
Non-Valued
Firearms              Number       13,445       7,307 **        10,150             996      29,906


*Adjustments for personal property are items determined to be seized for forfeiture,
that in prior years were included in the seized evidence balance.
**Adjustments for non-valued firearms are items determined to be seized for
evidence that were not included in the seized for evidence balance in prior years.

For the Fiscal Year Ended September 30, 2010

   Seized Property             Beginning    Adjust-                                       Ending
      Category                  Balance      ments         Seizures Disposals             Balance

Seized for Evidence

Seized Cash Deposited
and Seized Monetary
Instruments           Value    $    2,436   $        -     $ 8,528       $ 7,954 $           3,010

Personal Property	    Number          180          1 *             13              17          177
                      Value  $      1,886   $     11       $       84    $        256 $      1,725
Non-Valued
Firearms              Number       14,174            -         5,213             5,942      13,445


* Adjustments include property status and valuation changes received after, but properly
  credited to FY 2009.




                                                -62-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


6. Seized Property (continued)


Method of Disposition of Seized Property:

During FY 2011 and 2010, $496 and $256 of valued property seized for evidence were
returned to parties with a bonafide interest, and $6,272 and $7,954 were either released to
a designated party or transferred to the appropriate federal entity under forfeiture or
abandonment proceedings. Non-valued property was primarily disposed of through
destruction.




                                           -63-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


7. General Property, Plant and Equipment, Net

 As of September 30, 2011                Acquisition   Accumulated    Net Book    Service
                                           Cost        Depreciation    Value       Life
 Land and Land Rights                    $   3,200      $         ­   $ 3,200      N/A
 Improvements to Land                        4,584           (866)        3,718   15 yrs
 Construction in Progress                    2,216                -       2,216    N/A
 Buildings, Improvements, and
    Renovations                            137,018        (23,566)      113,452 40 yrs
 Vehicles                                   42,586        (29,410)       13,176 3-6 yrs
 Equipment                                  84,161        (71,761)       12,400 3-10 yrs
 Assets Under Capital Lease                  3,497         (1,916)        1,581 5-6 yrs
 Leasehold Improvements                    120,026        (75,412)       44,614 2-20 yrs
 Internal Use Software                      19,003        (11,240)        7,763 3-7 yrs
 Internal Use Software in Development        8,142              -         8,142    N/A
 Total                                   $ 424,433     $ (214,171)    $ 210,262


 As of September 30, 2010                Acquisition   Accumulated    Net Book    Service

                                           Cost        Depreciation    Value       Life

 Land and Land Rights                    $   3,200      $         ­   $ 3,200      N/A

 Improvements to Land                        4,518           (552)        3,966   15 yrs
 Construction in Progress                   30,397                -     30,397     N/A
 Buildings, Improvements, and
    Renovations                            104,897        (20,224)       84,673 40 yrs
 Vehicles                                   42,131        (27,684)       14,447 3-6 yrs
 Equipment                                  91,139        (82,241)        8,898 3-10 yrs
 Assets Under Capital Lease                  5,550         (2,466)        3,084 5-6 yrs
 Leasehold Improvements                    112,649        (66,926)       45,723 2-20 yrs
 Internal Use Software                      19,048         (9,182)        9,866 3-7 yrs
 Internal Use Software in Development        2,864              -         2,864    N/A
 Total                                   $ 416,393     $ (209,275)
   $ 207,118




                                           -64-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


7. General Property, Plant and Equipment, Net (continued)

                                                      2011           2010
Net Changes from Federal Sources
   Construction in Progress                     $      1,727     $ 16,001
   Buildings, Improvements, and Renovations            3,739           14
   Vehicles                                              848        3,407
   Equipment                                            (768)         651
   Leasehold Improvements                              3,866        1,635
   Internal Use Software                                   -          741
     Total purchased from Federal Sources       $      9,412     $ 22,449

Net Changes from the Public
   Construction in Progress                       $ (244)        $    468
   Buildings, Improvements, and Renovations          133                -
   Vehicles                                        1,983                -
   Equipment                                       7,998            4,837
   Assets Under Capital Lease                          -              173
   Leasehold Improvements                          2,161              180
   Internal Use Software                           5,234            3,347
     Total purchased from the Public
             17,265            9,005
   Total Capitalized Purchases
                 $ 26,677         $ 31,454



Depreciation and amortization are calculated using the straight-line method. Leasehold
improvements are amortized over the lesser of the life of the lease or useful life of the
asset. ATF owns land located in Ammendale, Maryland that is recorded at its acquisition
value. There are no restrictions on the use or convertibility of property and equipment.




                                           -65-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


8. Other Assets

As of September 30, 2011 and 2010
                                                          2011          2010
Intragovernmental
    Advances and Prepayments                          $     7,615   $    14,294
    Other Intragovernmental Assets                             28            55
      Total Other Assets                              $     7,643   $    14,349


As of September 30, 2011, prepayments consisted of $5,688 to General Services
Administration (GSA), $1,715 to Treasury Working Capital Fund (WCF), $149 Office of
Justice Programs and $63 to Department of Defense. The remaining $28 was due to ATF
from Treasury’s General Fund. September 30, 2010, prepayments consisted of $11,376
to GSA, $2,862 to WCF, and $56 to Department of Defense. The remaining $55 was due
to ATF from Treasury’s General Fund.




                                           -66-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


9. Liabilities not Covered by Budgetary Resources

As of September 30, 2011 and 2010
                                                                    2011               2010
Intragovernmental
   Accrued FECA Liabilities                                     $     20,074       $     19,567
   Other Post-Employment Benefits Due and Payable                          -                 58
   Other Unfunded Employment Related Liabilities                          51                 32
     Total Intragovernmental                                          20,125             19,657

With the Public
 Actuarial FECA Liabilities                                         110,697             107,012
 Accrued Annual and Compensatory Leave Liabilities                   51,897              52,408
 Contingent Liabilities (Note 13)                                         -               3,505
    Total With the Public                                           162,594             162,925
    Total Liabilities not Covered by Budgetary Resources            182,719             182,582
    Total Liabilities Covered by Budgetary Resources                169,594             147,711
    Total Liabilities                                    $          352,313        $    330,293

Generally, liabilities not covered by budgetary resources are liabilities for which
Congressional action is needed before budgetary resources can be provided. However,
some liabilities do not require appropriations and will be liquidated by the assets of the
entities holding these liabilities. Such assets include civil and criminal debt collections,
seized cash and monetary instruments, and project generated proceeds.




                                            -67-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


10.   Leases

As of September 30, 2011 and 2010

Capital Leases                                             2011        2010

Summary of Assets Under Capital Lease
   Machinery and Equipment                             $    3,497     $ 5,550
   Accumulated Depreciation                                 1,916       2,466
    Total Assets Under Capital Lease (Note 7)          $    1,581     $ 3,084

Future Capital Lease Payments Due
                                                      Machinery and
Fiscal Year                                            Equipment
2012                                                         884
2013                                                         557
     Total Future Capital Lease Payments               $ 1,441
Less: Imputed Interest                                        (24)
Less: Executory Costs                                       (346)
 FY 2011 Net Capital Lease Liabilities                 $ 1,071
 FY 2010 Net Capital Lease Liabilities                 $ 1,875

                                                                       2011         2010
Net Capital Lease Liabilities Covered by Budgetary Resources          $ 1,071      $ 1,875



The capital leases are comprised of a computer server and 257 postage meters as well as
associated equipment. The total capital asset value is $3,497 with accumulated
depreciation of $1,916. As of September 30, 2011 capital lease liability for machinery
and equipment was $1,071. ATF expects to own the computer server at the end of the
lease period. The postal equipment, with the exception of the meters, is leased to own.
The meters remain property of the United States Postal Service.

The lease on the server will be amortized through FY 2012 and includes a bargain
purchase price of $35. The postal meter lease amortizes through FY 2013.




                                           -68-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


10. Leases (continued)

As of September 30, 2011 and 2010


Future Noncancelable Operating Lease Payments

Fiscal Year                                               Buildings
2012                                                            3,026
2013                                                            3,016
2014                                                            3,037
2015                                                            3,059
2016                                                            3,061
After 2016                                                      4,857
    Total Future Noncancelable Operating
        Lease Payments                                $       20,056




                                           -69-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


11. Seized Cash and Monetary Instruments

ATF’s seized monetary instruments were $3,527 as of September 30, 2011, and $3,010 as
of September 30, 2010. All of this cash is seized in the course of law enforcement
activities and is held as evidence pending the outcome of any criminal proceedings.




                                           -70-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


12. Other Liabilities

As of September 30, 2011 and 2010
                                                             2011              2010
Intragovernmental
   Employer Contributions and Payroll Taxes Payable      $     10,315      $      9,303
   Other Post-Employment Benefits Due and Payable                 108                58
   Other Unfunded Employment Related Liabilities                   51                32
     Total Intragovernmental                                   10,474             9,393

With the Public
 Accrued Liabilites - Taxpayer/Licensee                            26                54
 Other Liabilities                                             59,879            41,362
    Total the Public                                           59,905            41,416
    Total Other Liabilities                              $     70,379      $     50,809

All Other Liabilities are considered current. Other Liabilities, with the public, consists of
project generated proceeds. The proceeds not subject to forfeiture will be returned to the
Department of the Treasury General Fund at the conclusion of the project.




                                           -71-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


13. Contingencies and Commitments

                                        Accrued           Estimated Range of Loss
                                        Liabilities       Lower           Upper
 As of September 30, 2011
     Probable                       $           -     $        -       $       -
     Reasonably Possible                                     6,000           7,500

 As of September 30, 2010
     Probable                       $        3,505    $      3,505     $     3,505

     Reasonably Possible                                     6,000           6,000





                                              -72-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


14. Net Cost of Operations by Suborganization

For the Fiscal Year Ended September 30, 2011
                                                  Suborganizations

                                                     Explosives Alcohol and
                                       Firearms      and Arson Tobacco Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security
   Cost of Operations                  $     2,319   $     3,269   $      61    $      5,649

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the
       American People
   Gross Cost                              958,955       284,639       24,455       1,268,049
   Less: Earned Revenue                     68,502        21,374        1,424          91,300
   Net Cost of Operations                  890,453       263,265       23,031       1,176,749

Net Cost of Operations                 $ 892,772 $ 266,534         $ 23,092     $ 1,182,398




                                             -73-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


14. Net Cost of Operations by Suborganization (continued)

For the Fiscal Year Ended September 30, 2010
                                                  Suborganizations

                                                     Explosives Alcohol and
                                       Firearms      and Arson Tobacco Consolidated

Goal 1: Prevent Terrorism and Promote the Nation's Security
   Cost of Operations                  $     2,339   $     4,785   $      61    $      7,185

Goal 2: Prevent Crime, Enforce Federal Laws, and Represent the Rights and Interests of the
       American People
   Gross Cost                              948,958       292,182       24,794       1,265,934
   Less: Earned Revenue                     68,189        21,566        1,404          91,159
   Net Cost of Operations                  880,769       270,616       23,390       1,174,775

Net Cost of Operations                 $ 883,108 $ 275,401         $ 23,451     $ 1,181,960


ATF activity primarily supports DOJ’s goal to Prevent Crime, Enforce Federal Laws, and
Represent the Rights and Interests of the American People. ATF participation in the
Joint Terrorism Task Force and the Terrorist Device Analysis Center supports DOJ’s goal
to Prevent Terrorism and Promote the Nation’s Security. Revenue is not associated with
this goal.




                                             -74-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


15. Imputed Financing from Costs Absorbed by Others

Imputed Inter-Departmental Financing Sources are the unreimbursed (i.e. non-
reimbursed and under reimbursed) portion of the full costs of goods and services received
by ATF from a providing entity that is not part of the U.S. Department of Justice. In
accordance with SFFAS No. 30, “Inter-Entity Cost Implementation Amending SFFAS
No. 4, Managerial Cost Accounting Standards and Concepts”, the material imputed
inter-departmental financing sources recognized by ATF are the actual cost of future
benefits for the Federal Employees Health Benefits Program (FEHB), the Federal
Employees’ Group Life Insurance Program (FEGLI), the Federal pension plans that are
paid by other Federal entities, and any un-reimbursed payments made from the Treasury
Judgment Fund on behalf of ATF. The Treasury Judgment Fund was established by the
Congress and funded at 31 U.S.C. 1304 to pay in whole or in part the court judgments
and settlement agreements negotiated by the Department on behalf of agencies, as well as
certain types of administrative awards. Interpretation of Federal Financial Accounting
Standards Interpretation No. 2, “Accounting for Treasury Judgment Fund Transactions,”
requires agencies to recognize liabilities and expenses when unfavorable litigation
outcomes are probable, and the amount can be estimated and will be paid by the Treasury
Judgment Fund.

SFFAS No. 5, “Accounting for Liabilities of the Federal Government,” requires that
employing agencies recognize the cost of pensions and other retirement benefits during
their employees’ active years of service. SFFAS No. 5 requires OPM to provide cost
factors necessary to calculate cost. OPM actuaries calculate the value of pension benefits
expected to be paid in the future, and then determine the total funds to be contributed by
and for covered employees, such that the amount calculated would be sufficient to fund
the projected pension benefits.

The cost to be paid by other agencies is the total calculated future costs, less employee
and employer contributions. In addition, other retirement benefits, which include health
and life insurance that are paid by other Federal entities, must also be disclosed. Those
costs determined to be material are presented in the table below.




                                           -75-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


15. Imputed Financing Costs Absorbed by Others (continued)

For the Fiscal Years Ended September 30, 2011 and 2010
                                                          2011              2010
Imputed Inter-Departmental Financing
    Treasury Judgment Fund                            $      1,214      $      1,246
    Health Insurance                                        27,099            25,445
    Life Insurance                                             109               107
    Pension                                                 19,122            12,466
        Total Imputed Inter-Departmental              $     47,544      $     39,264

Judgment Fund payments for FY 2011 and FY 2010 were paid by the Treasury on behalf
of the ATF.

ATF does not report CSRS assets, FERS assets, accumulated plan benefits or unfunded
liabilities, if any, applicable to retirement plans because the accounting for and reporting
of such amounts is the responsibility of OPM. Based on cost factors provided by OPM,
estimated future pension benefits for ATF employees, to be paid by OPM as of
September 30, 2011 and September 30, 2010, are included in the chart above. Similarly,
OPM, rather than ATF, reports liabilities for future payments to retired employees who
participate in the Federal Employee Health Benefits (FEHB) and the Federal Employee
Group Life Insurance (FEGLI) Program. The FY 2011 and FY 2010 FEHBP cost factors
applied to a weighted average number of employees enrolled in the FEHBP was $6,027
(dollars) and $5,678 (dollars), respectively. The FEGLI cost factors for employees
enrolled in the FEGLI program, as provided by OPM, was .02 percent of their basic pay.

Imputed Intra-Departmental Financing Sources as defined in SFFAS No. 4,
“Managerial Cost Accounting Concepts and Standards for the Federal Government,” are
the unreimbursed portion of the full costs of goods and services received by ATF from a
providing entity that is part of the U.S. Department of Justice. Recognition is required
for those transactions determined to be material to the receiving entity. The
determination of whether the cost is material requires considerable judgment based on the
specific facts and circumstances of each type of good or service provided. SFFAS No. 4
also states that costs for broad and general support need not be recognized by the
receiving entity, unless such services form a vital and integral part of the operations or
output of the receiving entity. Costs are considered broad and general if they are
provided to many, if not all, reporting components and not specifically related to the
receiving entity’s output. ATF does not have any imputed Intra-Departmental financing
sources.




                                           -76-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


16. Information Related to the Statement of Budgetary Resources

Apportionment Categories of Obligations Incurred:

The amount of direct and reimbursable obligations against amounts apportioned under
Category A and B are reported in the table below. The apportionment categories are
determined in accordance with the guidance provided in Part 4 of OMB Circular A-11,
“Preparation, Submission and Execution of the Budget.” Category A represents
resources apportioned for calendar quarters. Category B represents resources
apportioned for other time periods; for activities, projects, and objectives or for a
combination thereof.

                                                                                       Total
                                                       Direct
       Reimbursable   Obligations
                                                      Obligations
    Obligations    Incurred

For the Fiscal Year Ended September 30, 2011
  Obligations Apportioned Under

    Category A
                                   $ 1,125,706        $    86,110    $ 1,211,816
    Category B
                                        48,576                  -         48,576
  Total                                           $ 1,174,282        $    86,110    $ 1,260,392

For the Fiscal Year Ended September 30, 2010
  Obligations Apportioned Under

    Category A
                                   $ 1,153,606        $   102,650    $ 1,256,256
    Category B
                                         1,878                  -          1,878
  Total                                           $ 1,155,484
       $   102,650    $ 1,258,134




                                           -77-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


16. Information Related to the Statement of Budgetary Resources (continued)

Status of Undelivered Orders:

Undelivered Orders (UDO) represent the amount of goods and/or services ordered, which
have not been actually or constructively received. This amount includes any orders
which may have been prepaid or advanced but for which delivery or performance has not
yet occurred.

As of September 30, 2011 and 2010
                                                      2011             2010

     UDO Obligations Unpaid                       $   139,274      $    124,631
     UDO Obligations Prepaid/Advanced                   8,401            15,963
      Total UDO                                   $   147,675      $    140,594


Legal Arrangements Affecting Use of Unobligated Balances:

Unobligated balances represent the cumulative amount of budget authority that is not
obligated and that remains available for obligation based on annual legislative
requirements and other enabling authorities, unless otherwise restricted. The use of
unobligated balances is restricted based on annual legislation requirements and other
enabling authorities. Funds are appropriated on an annual, multi-year, and no-year basis.
Appropriated funds shall expire on the last day of availability and are no longer available
for new obligations. Unobligated balances in unexpired fund symbols are available in the
next fiscal year for new obligations unless some restrictions had been placed on those
funds by law. Amounts in expired fund symbols are not available for new obligations, but
may be used to adjust previously established obligations.




                                           -78-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


16. Information Related to the Statement of Budgetary Resources (continued)

Statement of Budgetary Resources vs the Budget of the United States Government:

The reconciliation as of September 30, 2011 is not presented because the submission of
the Budget of the United States Government (Budget) for FY 2013, which presents the
execution of the FY 2011 Budget, occurs after publication of these financial statements.
The Department of Justice Budget Appendix can be found on the OMB website
(http://www.whitehouse.gov/omb/budget) and will be available in early February 2012.

For the Fiscal Year Ended September 30, 2010
  (Dollars in millions)                                               Distributed
                                          Budgetary     Obligations   Offsetting     Net
                                           Resources     Incurred      Receipts     Outlays

Statement of Budgetary Resources (SBR)    $    1,368    $   1,258     $       1     $   1,150

Funds not Reported in the Budget
  Expired Funds                                  (41)         (18)

   Distributed Offsetting Receipts                                           (1)           1

Budget of the United States Government    $    1,327    $   1,240     $        -    $   1,151




                                              -79-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


17.   Net Custodial Revenue Activity

As an agent of the federal government and as authorized by 26 U.S.C. § 6301, ATF
collects fees from firearms and explosives industries, as well as import, permit and
license fees. Special Occupational Taxes are collected from certain firearms businesses.
Miscellaneous collections include project-generated proceeds. As ATF is unable to use
these collections in its operations, ATF is required to transfer these collections to the
Treasury General Fund. The ATF custodial collections totaled $21,444 and $14,674 for
the fiscal years ended September 30, 2011 and 2010, respectively.

These collections represent the balances in the Combined Statements of Custodial
Activity. These authorities are granted under the Gun Control Act, Title XI of the
Organized Crime Control Act of 1970, and the Safe Explosives Act. All authorities
granted by these laws were transferred from the Department of the Treasury to the
Department of Justice under the Homeland Security Act of 2002.

 All of the fees collected by ATF net of related refund disbursements are remitted to the
Treasury General Fund. The Treasury further distributes this revenue to Federal agencies
in accordance with various laws and regulations. There were no custodial liabilities as of
September 30, 2011 and 2010.




                                           -80-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)



18. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing)

For the Fiscal Years Ended September 30, 2011 and 2010
                                                                              2011           2010

Resources Used to Finance Activities

   Budgetary Resources Obligated
     Obligations Incurred                                                  $ 1,260,392    $ 1,258,134
     Less: Spending Authority from Offsetting Collections and
        Recoveries                                                             106,579        131,116
     Obligations Net of Offsetting Collections and Recoveries                1,153,813      1,127,018
     Less: Offsetting Receipts                                                   3,892            622
     Net Obligations                                                         1,149,921      1,126,396

  Other Resources
      Transfers-In/Out Without Reimbursement                                     3,153          2,407
      Imputed Financing from Costs Absorbed by Others (Note 15)                 47,544         39,264
      Net Other Resources Used to Finance Activities                            50,697         41,671
Total Resources Used to Finance Activities                                  1,200,618      1,168,067

Resources Used to Finance Items not Part of the Net Cost of
  Operations
      Net Change in Budgetary Resources Obligated for Goods, Services,
         and Benefits Ordered but not Yet Provided                             (17,138)        19,989
      Resources That Fund Expenses Recognized in Prior Periods (Note 19)        (4,074)          (192)
      Budgetary Offsetting Collections and Receipts That do not
        Affect Net Cost of Operations                                            3,892            622
      Resources That Finance the Acquisition of Assets                         (26,677)       (31,454)
Total Resources Used to Finance Items not Part of the Net Cost
  of Operations                                                                (43,997)       (11,035)

Total Resources Used to Finance the Net Cost of Operations                 $ 1,156,621    $ 1,157,032




                                            -81-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)




18. Reconciliation of Net Cost of Operations (proprietary) to Budget (formerly the
Statement of Financing) (continued)

For the Fiscal Years Ended September 30, 2011 and 2010
                                                                 2011            2010

Components of Net Cost of Operations That Will not Require
  or Generate Resources in the Current Period

   Components That Will Require or Generate Resources
      in Future Periods (Note 19)                            $      4,117    $       5,276

      Depreciation and Amortization                                23,918         21,466
      Revaluation of Assets or Liabilities                         (2,258)        (1,814)

Total Components of Net Cost of Operations That Will not
   Require or Generate Resources in the Current Period             25,777         24,928

Net Cost of Operations                                       $ 1,182,398     $ 1,181,960




                                             -82-
U. S. Department of Justice
Bureau of Alcohol, Tobacco, Firearms and Explosives
Notes to the Financial Statements
(Dollars in Thousands, Except as Noted)


19. Explanation of Differences Between Liabilities not Covered by Budgetary
Resources and Components of Net Cost of Operations Requiring or Generating
Resources in Future Periods

Liabilities that are not covered by realized budgetary resources and for which there is not
certainty that budgetary authority will be realized, such as the enactment of an
appropriation, are considered liabilities not covered by budgetary resources. These
liabilities totaling $182,719 and $182,582 on September 30, 2011 and 2010, respectively,
are discussed in Note 9, Liabilities not Covered by Budgetary Resources. Decreases in
these liabilities result from current year budgetary resources that were used to fund
expenses recognized in prior periods. Increases in these liabilities represent unfunded
expenses that were recognized in the current period. These increases along with the
change in the portion of exchange revenue receivables from the public, which are not
considered budgetary resources until collected, represent components of current period
net cost of operations that will require or generate budgetary resources in future periods.
The changes in liabilities not covered by budgetary resources and receivables generating
resources in future periods are comprised of the following:

For the Fiscal Years Ended September 30, 2011 and 2010
                                                                            2011          2010
Resources that Fund Expenses Recognized in Prior Periods
  Decrease in Accrued Annual and Compensatory Leave Liabilities         $     (511)   $          -
  Other
    Decrease in Accrued FECA Liabilities                                       -            (184)
    Decrease in Contingent Liabilities                                    (3,505)              -
    Decrease in Other Unfunded Employment Related Liabilities                  -              (8)
    Decrease in Other Post Employment Benefits Due and Payable               (58)              -
     Total Other                                                          (3,563)           (192)
    Total Resources that Fund Expenses Recognized in Prior Periods      $ (4,074)     $     (192)

Components of Net Cost of Operations That Will Require or Generate Resources in Future Periods
  Increase in Accrued Annual and Compensatory Leave Liabilities        $       -     $ 3,808
  Other
    Increase in Actuarial FECA Liabilities                                3,685          1,514

    Increase in Accrued FECA Liabilities                                    507              ­
    Increase in Contingent Liabilities                                         -             5

    Increase in Other Unfunded Employment Related Liabilities                 19             ­
    Increase in Other Post Employment Benefits Due and Payable                 -            12

    Decrease/(Increase) in Receivable from the Public                       (94)           (63)

      Total Other                                                         4,117          1,468


     Total Components of Net Cost of Operations That Will Require
     or Generate Resources in Future Periods                            $    4,117    $    5,276




                                           -83-
This page intentionally left blank.




                -84-
Required Supplementary Information 

             Unaudited 





              -85-
                                                                               U.S. Department of Justice

                                                                  Bureau of Alcohol, Tobacco, Firearms and Explosives

                                                                         Required Supplementary Information

                                                                     Combining Statement of Budgetary Resources

                                                                                       Unaudited

                                                          For the Fiscal Year Ended September 30, 2011                       For the Fiscal Year Ended September 30, 2010

Dollars in Thousands                                                                     2011                                                      2010

Budgetary Resources	                                              Appropriated         Trust Funds           Cumulative      Appropriated        Trust Funds           Cumulative

  Unobligated Balance, Brought Forward, October 1             $         109,102    $            1,029    $       110,131    $	      81,166   $            1,029    $        82,195

  Recoveries of Prior Year Unpaid Obligations	                           21,159                      -            21,159            38,221                     -            38,221

  Budget Authority
     Appropriations Received                                          1,114,772                      -         1,114,772         1,158,272                     -         1,158,272
     Spending Authority from Offsetting Collections
        Earned
            Collected                                                    95,965                      -            95,965            81,707                     -            81,707
            Change in Receivables from Federal Sources                     (488)                     -              (488)            9,679                     -             9,679
         Change in Unfilled Customer Orders
            Without Advance from Federal Sources                        (10,057)                     -           (10,057)            1,509                     -             1,509
  Subtotal Budget Authority                                           1,200,192                      -         1,200,192         1,251,167                     -         1,251,167

  Nonexpenditure Transfers, Net, Anticipated and Actual                  (7,892)                     -            (7,892)           (3,318)                    -            (3,318)
  Permanently not Available                                              (2,231)                     -            (2,231)                -                     -                 -
Total Budgetary Resources	                                    $       1,320,330 $               1,029    $     1,321,359 $       1,367,236 $              1,029    $     1,368,265




                                                                                             -86-
                                                                                           U.S. Department of Justice

                                                                               Bureau of Alcohol, Tobacco, Firearms and Explosives

                                                                                      Required Supplementary Information

                                                                             Combining Statement of Budgetary Resources (Continued)

                                                                                                   Unaudited


                                                                  For the Fiscal Year Ended September 30, 2011                         For the Fiscal Year Ended September 30, 2010

Dollars in Thousands                                                                                 2011                                                  2010

Status of Budgetary Resources

   Obligations Incurred

      Direct
                                                                   $ 1,174,282     $        -   $      1,174,282   $      1,155,484   $               -   $       1,155,484
      Reimbursable
                                                                  86,110              -             86,110            102,650                   -             102,650
          Total Obligations Incurred 
                                            1,260,392              -          1,260,392          1,258,134                   -           1,258,134
   Unobligated Balance - Available

      Apportioned
                                                                    38,931            -              38,931             53,461                -                 53,461
          Total Unobligated Balance - Available
                                      38,931            -              38,931             53,461                -                 53,461
   Unobligated Balance not Available
                                                 21,007        1,029              22,036             55,641            1,029                 56,670

Total Status of Budgetary Resources                                             $ 1,320,330     $   1,029    $      1,321,359   $      1,367,236   $        1,029      $       1,368,265


Change in Obligated Balance

   Obligated Balance, Net - Brought Forward, October 1
   Obligated Balance Transferred, Net (Note 20)

      Unpaid Obligations
                                                       $     226,042   $       -    $        226,042   $        238,351 $                 -   $         238,351
      Less: Uncollected Customer Payments from Federal Sources
                        70,397           -              70,397             59,209                   -              59,209
          Total Unpaid Obligated Balance, Net - Brought Forward, October 1            155,645           -             155,645            179,142                   -             179,142
   Obligations Incurred                                                             1,259,363       1,029           1,260,392          1,258,113                  21           1,258,134
   Less: Gross Outlays                                                              1,219,844           -           1,219,844          1,232,201                  21           1,232,222
   Less: Recoveries of Prior Year Unpaid Obligations, Actual                           21,159           -              21,159             38,221                   -              38,221
   Change in Uncollected Customer Payments from Federal Sources                        10,545           -              10,545            (11,188)                  -             (11,188)

   Obligated Balance, Net - End of Period

      Unpaid Obligations
                                                            245,431             -            245,431            226,042                   -             226,042
      Less: Uncollected Customer Payments from Federal Sources
                       59,852             -             59,852             70,397                   -              70,397
         Total Unpaid Obligated Balance, Net - End of Period                    $    185,579    $        -   $        185,579   $        155,645   $               -   $         155,645

Net Outlays
   Gross Outlays
                                                               $ 1,219,844     $        -   $      1,219,844   $      1,232,201   $              21   $       1,232,222
   Less: Offsetting Collections
                                                     95,965              -             95,965             81,707                   -              81,707
   Less: Distributed Offsetting Receipts
                                             3,892              -              3,892                622                   -                 622
Total Net Outlays                                                               $ 1,119,987     $        -   $      1,119,987   $      1,149,872   $              21   $       1,149,893




                                                                                                     -87-
This page intentionally left blank.




                -88-
Appendix




 -89-
This page intentionally left blank.




                -90-
                                                                   APPENDIX


              OFFICE OF THE INSPECTOR GENERAL

             ANALYSIS AND SUMMARY OF ACTIONS

               NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of the
Independent Auditors’ Report on Internal Control over Financial Reporting to
the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF). ATF’s
response is incorporated in the Independent Auditors’ Report on Internal
Control over Financial Reporting of this final report. The following provides
the OIG analysis of the response and summary of actions necessary to close
the report.

Recommendation Number:

1.	   Resolved. ATF concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that ATF has established stronger
      oversight controls for financial reporting and validation of recorded
      transactions.

2.	   Resolved. ATF concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that ATF has established standardized
      recording and reporting of upward and downward adjustments.

3.	   Resolved. ATF concurred with our recommendation. This
      recommendation can be closed when subsequent annual financial
      statement audit testing verifies that ATF has implemented quality
      controls over the statistical accounts payable accrual rate
      development, as well as the quarterly accrual calculations.




                                     -91-
